<html>
<title> - THE IMPORTANCE OF EARLY CHILDHOOD DEVELOPMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             THE IMPORTANCE OF EARLY CHILDHOOD DEVELOPMENT 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 17, 2009

                               __________

                            Serial No. 111-8

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-943 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director




























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 17, 2009...................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Meyer, Harriet, Ounce of Prevention Fund, co-chair, Illinois 
      Early Learning Council.....................................    13
        Prepared statement of....................................    15
        Additional material submitted............................    17
        Responses to questions for the record....................    74
    Rasmussen, Jessie, vice president, Buffett Early Childhood 
      Fund.......................................................    25
        Prepared statement of....................................    27
        Responses to questions for the record....................    76
    Redmon, Jim, executive director, Kansas Children's Cabinet 
      and Trust Fund.............................................    30
        Prepared statement of....................................    32
        Responses to questions for the record....................    78
    Robinson, Holly A., Ed.D., Commissioner, Georgia Department 
      of Early Care and Learning.................................    33
        Prepared statement of....................................    35
        PowerPoint submission....................................    38
        Responses to questions for the record....................    79
    Soifer, Don, executive vice president, Lexington Institute...    44
        Prepared statement of....................................    45
    Stebbins, Helene, project coordinator, National Center on 
      Children in Poverty........................................     7
        Prepared statement of....................................     9
        Responses to questions for the record....................    80


                        THE IMPORTANCE OF EARLY
                         CHILDHOOD DEVELOPMENT

                              ----------                              


                        Tuesday, March 17, 2009

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:04 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Miller, Kildee, Payne, Scott, Woolsey, Hinojosa, 
Tierney, Kucinich, Wu, Holt, Davis, Loebsack, Hirono, Clarke, 
Courtney, Polis, Tonko, Pierluisi, Sablan, Titus, McKeon, 
Castle, Biggert, Platts, Wilson, Kline, Price, Guthrie, 
Cassidy, and Hunter.
    Staff present: Paulette Acevedo, Legislative Fellow, 
Education; Tylease Alli, Hearing Clerk; Curtis Ellis, 
Legislative Fellow, Education; Denise Forte, Director of 
Education Policy; Ruth Friedman, Senior Education Policy 
Advisor (Early Childhood); David Hartzler, Systems 
Administrator; Lloyd Horwich, Policy Advisor, Subcommittee on 
Early Childhood, Elementary and Secretary Education; Jessica 
Kahanek, Press Assistant; Mike Kruger, Online Outreach 
Specialist; Sharon Lewis, Senior Disability Policy Advisor; Joe 
Novotny, Chief Clerk; Margaret Young, Staff Assistant, 
Education; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Robert Borden, 
Minority General Counsel; Kirsten Duncan, Minority Professional 
Staff Member; Alexa Marrero, Minority Communications Director; 
Susan Ross, Minority Director of Education and Human Resources 
Policy; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Miller [presiding]. A quorum being present, the 
hearing will come to order.
    Today's hearing is about how Congress can strengthen early 
childhood development and education. As President Obama rightly 
said in his first major speech on education last week, any 
significant education reform must start with children before 
they enter their Kindergarten classrooms. If we only start 
focusing on kids at Kindergarten and on, it is 5 years too 
late.
    Over the past decade, there has been groundbreaking 
research on brain and child development that underscores the 
importance of the first 5 years of a child's life. In 
combination with their genes, children's experiences in these 
critical early years influence brain chemistry, architecture 
and growth in ways that have lasting effects on their health, 
learning and behavior.
    The Early Childhood Longitudinal Study overseen by the 
Department of Education, for example, found that twice as many 
4-year-olds from upper-income family households were proficient 
in early math skills when compared to 4-year-olds from the 
lowest income households. High quality early education can 
improve children's reading, math, and language skills, 
strengthen parenting practices that help increase school 
readiness, and lead to better health and behavior.
    Studies also show all children benefit from high quality 
early education programs, with children from the low-income 
families showing the largest benefits. Investing in early 
childhood education will help ensure that our next generation 
of workers is stronger, more innovative and more competitive. 
It is an investment that yields great returns. Every dollar 
spent on early childhood education can generate anywhere from 
$1.25 to $17 in return, but we have a long way to go to ensure 
that all children can get high quality early education 
foundation.
    Today, nearly 12 million of the 18.5 million children under 
five in this country are in some type of regular child care or 
early education setting. Children with working mothers spend an 
average of 36 hours per week in early learning settings. Child 
care costs for families with young children are generally the 
single highest or the second highest spending costs after 
housing. Parents need more affordable quality early education 
settings for their children as they work longer hours or take 
on a second job.
    Unfortunately, research suggests the quality of child care 
in this country is mediocre. This is not surprising, given the 
weak and variable standards in most states for early learning 
programs. The vast majority of states have no training 
requirements for child care providers prior to working in a 
classroom. And 13 state pre-K programs meet five or fewer of 
the 10 quality criteria.
    The American Recovery and Reinvestment Act provides 
emergency funding for child care, Head Start and Early Head 
Start to expand opportunities for more low income children and 
create tens of thousands of new jobs. This is a good start, but 
more needs to be done.
    In his budget blueprint, President Obama outlined his plan 
to build on these key investments. He proposes creating 
incentives for states to support comprehensive and coordinated 
high quality early childhood programs for children age birth to 
five. I think these are the right types of investments.
    I look forward to working in a bipartisan way with the 
Obama administration to ensure our youngest children are 
provided the early learning opportunities they need to succeed 
in school and in life.
    There are initiatives across the country leading the way 
that show that investments in high quality early education can 
make a tremendous difference in children's futures, both inside 
and outside the classroom. Today, we will hear from witnesses 
who have sound and sensible ideas on how we can bring about 
early childhood reform.
    We look forward to hearing from each of you about what is 
being done to help our youngest children. Few issues are more 
critical to the future prosperity of this country.
    I would like now to yield to the senior Republican on the 
committee, Mr. McKeon, for his opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Today's hearing is about how Congress can strengthen early 
childhood development and education.
    As President Obama rightly said in his first major speech on 
education last week, any significant education reform effort must start 
with children before they enter their kindergarten classrooms. If we 
only start focusing on kids at kindergarten and on--it's five years too 
late.
    Over the past decade, there has been groundbreaking research on 
brain and child development that underscores the importance of the 
first five years of a child's life.
    In combination with their genes, children's experiences in these 
critical early years influence brain chemistry, architecture, and 
growth in ways that can have lasting effects on their health, learning, 
and behavior. The Early Childhood Longitudinal Study overseen by the 
Department of Education, for example, found that twice as many 4-year-
olds from upper-income family households were proficient in early math 
skills when compared to 4-year-olds from the lowest income households.
    High quality early education can improve children's reading, math, 
and language skills, strengthen parenting practices that help increase 
school readiness, and lead to better health and behavior.
    Studies also show all children benefit from high quality early 
education programs, with children from low-income families showing the 
largest benefits.
    Investing in early childhood will help ensure our next generation 
of workers is stronger, more innovative and more competitive. It's an 
investment that yields great returns. Every dollar spent on early 
childhood education can generate anywhere from $1.25 to $17 in returns.
    But we have a long way to go to ensure that all children can get a 
high-quality early education foundation.
    Today, nearly 12 million of the 18.5 million children under 5 in 
this country are in some type of regular child care or early education 
setting.
    Children with working mothers spend on average 36 hours per week in 
early learning settings.
    Child care costs for families with young children are generally the 
single highest or second highest spending cost, after housing. Parents 
need more affordable, quality early education settings for their 
children as they work longer hours or take on a second job.
    Unfortunately, research suggests that the quality of child care in 
this country is mediocre. This is not surprising given the weak and 
variable standards in most states for early learning programs.
    The vast majority of states have no training requirement for child 
care providers prior to working in a classroom. And thirteen state pre-
k programs meet five or fewer of 10 key quality criteria.
    The American Recovery and Reinvestment Act provides emergency 
funding for child care, Head Start, and Early Head Start to expand 
opportunities for more low-income children, and create tens of 
thousands of new jobs.
    This is a good start--but more needs to be done.
    In his budget blueprint, President Obama outlined his plan to build 
on these key investments. He proposes creating incentives for states to 
support comprehensive and coordinated high quality early childhood 
programs for children age birth to five.
    I think these are the right types of investments. I look forward to 
working in a bipartisan way with the Obama Administration, to ensure 
our youngest children are provided the early learning opportunities 
they need to succeed in school and in life.
    There are initiatives across the country leading the way that show 
that investments in high quality early education can make a tremendous 
difference in children's futures--both inside and outside of the 
classroom.
    Today we will hear from witnesses who have sound and sensible ideas 
on how we can bring about early childhood reform.
    We look forward to hearing from each of you about what is being 
done to help our youngest children. Few issues are more critical to the 
future prosperity of our country.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning, 
especially to all of you Irishmen out there. Happy St. 
Patrick's Day.
    We are here today to examine the importance of early 
childhood development, a topic that is getting a lot of 
attention these days, and rightly so. A child's first years are 
among the most critical in laying the foundation for future 
learning. Cognitive development, social interaction and so many 
other areas of early learning play an important role as a child 
prepares to enter school.
    While governments have traditionally played a central role 
in K-12 education, the pre-K years have always been the domain 
of parents. There are numerous early childhood programs 
available, both public and private, from center-based child 
care to school-based settings with an academic focus.
    Although states have increasingly become involved with pre-
K initiatives, the federal government has largely refrained 
from inserting itself into the day-to-day operations of such 
programs. Of course, there is one notable exception. Since 
1965, the federal government has been involved in early 
childhood education through the Head Start program, which 
includes early Head Start.
    Head Start was created to serve disadvantaged children, 
recognizing that, when children start behind, they tend to stay 
behind. To help correct what we call the readiness gap between 
disadvantaged children and their higher income peers, the Head 
Start program combines comprehensive health and development 
services with an academic focus on pre-reading and pre-math 
skills. By emphasizing school readiness, the Head Start program 
is intended to narrow the readiness gap and avoid the 
achievement gaps that have plagued our nation's schools.
    I think the federal government has been right to focus our 
resources on disadvantaged children and their families. Like it 
or not, we have to make choices with the federal budget. And 
when it comes to setting priorities for early childhood 
education, I think our priority should be those children who we 
know are at risk of falling behind.
    The No Child Left Behind Act was about erasing achievement 
gaps between disadvantaged children and their peers, but we 
will never be able to accomplish that goal if children enter 
school already falling behind. I know President Obama has 
spoken a great deal about the importance of early childhood 
education, and I will look forward to hearing more of his ideas 
about what we can do in this area.
    As I approach this debate, I will keep three guiding 
principles in mind. First, I believe that parents must remain 
in control of early childhood chare and education. Second, I 
believe that we must retain our focus on low-income children. 
And finally, third, I believe we must be mindful of taxpayer 
resources.
    In 2000, the Government Accountability Office issued a 
report on federal involvement in early care and education 
programs. The study found that, in fiscal year 1999, nine 
different federal agencies administered a total of 69 different 
federal programs that provided or supported early education and 
care for children under age five.
    I mention this because I understand that there are 
proposals to create yet another federal early childhood 
program. In fact, we marked up a bill that would do exactly 
that during the last Congress. I think it would be a real 
mistake to simply layer on an additional program, particularly 
when there are so many programs and so much is already being 
spent for the same purpose.
    We have learned a lot in recent years, and we continue to 
learn more all the time, about how children's brains develop 
and how learning actually happens. It is an important area of 
study for both parents and policymakers, and I will look 
forward to continuing our work.
    Thank you, Chairman Miller, and I yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller and good morning. We're here today to 
examine the importance of early childhood development, a topic that is 
getting a lot of attention these days, and rightly so.
    A child's first years are among the most critical in laying the 
foundation for future learning. Cognitive development, social 
interaction, and so many other areas of early learning play an 
important role as a child prepares to enter school.
    While governments have traditionally played a central role in K-12 
education, the pre-K years have always been the domain of parents. 
There are numerous early childhood programs available, both public and 
private, from center-based child care to school-based settings with an 
academic focus. Although states have increasingly become involved with 
pre-K initiatives, the federal government has largely refrained from 
inserting itself into the day-to-day operation of such programs.
    Of course, there is one notable exception. Since 1965, the federal 
government has been involved in early childhood education through the 
Head Start program, which includes Early Head Start.
    Head Start was created to serve disadvantaged children, recognizing 
that when children start behind, they tend to stay behind. To help 
correct what we call the ``readiness gap'' between disadvantaged 
children and their higher-income peers, the Head Start program combines 
comprehensive health and development services with an academic focus on 
pre-reading and pre-math skills. By emphasizing school readiness, the 
Head Start program is intended to narrow the readiness gap and avoid 
the achievement gaps that have plagued our nation's schools.
    I think the federal government has been right to focus our 
resources on disadvantaged children and their families. Like it or not, 
we have to make choices with the federal budget. And when it comes to 
setting priorities for early childhood education, I think our priority 
should be the children who we know are at risk of falling behind.
    The No Child Left Behind Act was about erasing achievement gaps 
between disadvantaged children and their peers. But we will never be 
able to accomplish that goal if children enter school already having 
fallen behind.
    I know President Obama has spoken a great deal about the importance 
of early childhood education, and I look forward to hearing more of his 
ideas about what we can do in this area.
    As I approach this debate, I will keep three guiding principles in 
mind. First, I believe that parents must remain in control of early 
childhood care and education. Second, I believe that we must retain our 
focus on low-income children. And third, I believe we must be mindful 
of taxpayer resources.
    In 2000, the Government Accountability Office (GAO) issued a report 
on federal involvement in early care and education programs. The study 
found that in fiscal year 1999, nine different federal agencies 
administered a total of 69 different federal programs that provided or 
supported early education and care for children under age five.
    I mention this because I understand that there are proposals to 
create yet another federal early childhood program. In fact, we marked 
up a bill that would do exactly that during the last Congress. I think 
it would be a real mistake to simply layer on an additional program, 
particularly when there are so many programs, and so much is already 
being spent, for the same purpose.
    We have learned a lot in recent years, and we continue to learn 
more all the time, about how children's brains develop and how learning 
actually happens. It's an important area of study for both parents and 
policymakers, and I look forward to continuing our work.
    Thank you Chairman Miller, I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Pursuant to Committee Rule 12, any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    Let me welcome you all to the committee, and thank you for 
taking your time to share your thoughts and your expertise with 
the members of the committee. And I would like to introduce our 
witnesses to the committee.
    First is Ms. Helene Stebbins, who is President of HMS 
Policy Research, an early childhood policy and research firm 
specializing in the coordination of health education and care 
of children from birth through five. Ms. Stebbins has extensive 
experience working with state policymakers in the early 
learning issues.
    She is a strong proponent of holistic approaches to 
ensuring early care, wellness and learning needs of our 
youngest and most vulnerable children are met. Since 2005, Ms. 
Stebbins has directed the National Center for Children In 
Poverty, Improving the Odds for Young Children project, 
providing a state-by-state picture of various policies for 
families and young children.
    Ms. Harriet Meyer is widely recognized as a leader in 
developing and promoting promising early childhood programs. 
She has served as the President of the Ounce Of Prevention Fund 
since 1991. In 2003, the Governor of Illinois named Ms. Meyer 
co-chair of the Early Learning Council.
    In this role, she helped win the passage of Preschool For 
All, historic legislation making Illinois the first state to 
offer quality preschool opportunity to all 3- and 4-year-olds, 
as well as a set-aside devoted to programs focusing on at-risk 
infants and toddlers. Ms. Meyer also served as a U.S. 
Department of Health and Human Services Advisory Committee that 
created this country's Early Head Start program.
    Ms. Jessie Rasmussen has devoted her entire career to 
improving the outcomes of children and families. For over 20 
years, she was an early childhood education teacher and 
administrator in a variety of environments, including the Head 
Start, the Jewish Community Center, the Munroe Meyer 
Rehabilitation Center in Omaha, Nebraska. Ms. Rasmussen spent 
the next 20 years in state government, first serving as the 
Nebraska State Senator, and then as a state Human Services 
director in both Nebraska and Iowa.
    Ms. Rasmussen currently is vice president of the Buffett 
Early Childhood Fund, an important partner in early childhood 
initiatives in Nebraska.
    Mr. Jim Redmon joined the Kansas Children's Cabinet and 
Trust Fund in 2003 and was appointed executive director in 
2004. Under his direction, the Kansas Children's Cabinet and 
Trust Fund serves as a coordinating entity and a fiscal agent 
for several initiatives addressing health education and well-
being of children across the state.
    Mr. Redmon has a background in early childhood policy, fund 
development and organizational leadership evaluation and 
systems planning and child abuse prevention. He also has worked 
extensively at the community level, spending almost a decade 
working with young children and families in San Francisco 
before moving to Kansas.
    Mr. Price, did you want to introduce Ms. Robinson?
    Mr. Price. Thank you, Mr. Chairman.
    It is my privilege to introduce Dr. Holly Robinson to our 
committee. She is our commissioner for Bright From The Start in 
the state of Georgia, Georgia's Department of Early Care and 
Learning, our school readiness program.
    Dr. Robinson's resume is absolutely stellar, second to 
none. She has worked at the elementary level, the secondary 
level, community college, technical college level and 
university level in curriculum and instruction and in 
leadership. With her personal and professional philosophy of 
responsible stewardship and accountability, she bases decisions 
about departmental policies and programs on current research, 
best practices and data with truly remarkable results.
    Her education includes a bachelor's from Old Dominion 
University, a master's from Villanova, and a Doctor of 
Education from Rutgers, all for which we in Georgia we forgive 
her. One of the privileges of my public service at the 
community level and at the state Senate level and now here in 
Washington has truly been to work with an individual of such 
remarkable accomplishment, and it is my honor to introduce her 
to the committee today, Dr. Holly Robinson.
    Chairman Miller. Thank you very much.
    Don Soifer is the executive vice president of the Lexington 
Institute. Mr. Soifer has published research and articles on 
wide range of U.S. domestic public policy topics and runs the 
Institute's education program. Mr. Soifer was appointed in 2008 
to serve on the District of Columbia's public charter school 
board. The Board is responsibility for oversight of 60 charter 
schools on over 90 campuses serving 26,000 students.
    Welcome again to all of you. We are going to recognize you 
in the order in which you were introduced.
    When you begin speaking, a green light will go on in those 
little mechanisms in front of you. And at about 4 minutes, a 
yellow light will go on, and you will have a minute left. But 
we want you to be able to wrap up your statements, but do it in 
a fashion that you feel is coherent to the points you are 
trying to make so that we don't want to just cut you off. But 
we do want to allow time for questioning.
    Ms. Stebbins, welcome, and we look forward to your 
testimony.

  STATEMENT OF HELENE STEBBINS, PROJECT COORDINATOR, NATIONAL 
                 CENTER ON CHILDREN IN POVERTY

    Ms. Stebbins. Good morning, Chairman Miller and members of 
the committee, and thank you for the opportunity to testify 
today.
    I am the project coordinator of Improving the Odds For 
Young Children, a project of the National Center for Children 
In Poverty at Columbia University. I also work for the Birth To 
Five Policy Alliance, which is a pooled private fund to improve 
state policies for vulnerable young children.
    I am here today to talk to you about the state of state 
early childhood policies and to urge you to think 
comprehensively about the range of policy options that support 
early learning. Increasingly, policymakers understand that the 
foundation for learning and healthy development is established 
between birth and age five. But too often, the response to this 
knowledge is narrow, focusing on only one program or funding 
stream.
    My work seeks to raise the level of debate by offering a 
menu of policy options broken into three areas that young 
children need in order to become well-educated, self-sufficient 
adults. They need, first, regular visits to the doctor, even 
when they are healthy. Second, stimulating early learning 
opportunities, and third, stable, nurturing families who have 
enough resources and parenting skills to meet their children's 
needs.
    Now, think about these three dimensions as three legs of a 
stool. Strong public policies in each of these areas are 
essential to balance the stool and provide a stable foundation 
for healthy development and learning.
    In your briefing materials, you will find a copy of your 
state's early childhood profile. It looks something like this. 
We update these monthly, and the most recent profile can be 
downloaded from our website at NCCP.org. Each page of the 
profile represents one leg of the stool, with policy choices 
that promote access as well as quality.
    If we look at the profiles collectively, we see a lot of 
wobbly stools for early childhood development. Let me give you 
a few examples.
    First, the health leg of the stool. Forty-four states 
provide access to public health insurance for young children in 
low-income families. However, many of the children who are 
eligible for Medicaid are not receiving the dental and health 
screenings that are recommended by doctors and that can prevent 
or reduce costly problems in the future. In 45 states, one-
third of eligible children ages three to five never receive an 
annual check-up.
    Second leg--early learning. While access to state-funded 
pre-Kindergarten is growing, access to quality early care and 
education, from birth to school entry, is still inadequate. 
Child care licensing requirements are not promoting the kind of 
nurturing care that we know promotes school readiness. Only 
eight states meet recommended standards for toddlers, and only 
15 meet them for 4-year-old children.
    As the graph on page three of the profile shows, many young 
children eligible for enrollment in the major early childhood 
programs cannot access them, and access for infants and 
toddlers is especially limited. For example, a program like 
Early Head Start, with rigorous evaluations showing its 
effectiveness, serves less than 3 percent of the eligible 
population.
    Third leg--parents. State efforts to promote family 
economic security are uneven. About half of the states raise 
the minimum wage and half exempt families from poverty from 
state income taxes. Most low income working parents are not 
eligible for public health insurance, and only six states 
provide paid family leave so mothers can stay home with their 
newborn and establish that strong nurturing relationship.
    If we expect parents to be their children's first and best 
teachers, then we have to provide the economic and parenting 
supports that allow them to do so.
    There are many choices that can help balance the three-
legged stool of early childhood policy. My work focuses on 
state policies, but federal resource allocations and 
regulations shape many of these policies. My work shows the 
tremendous variation in the policy choices that states make, 
but federal policies can help level the playing field so 
children have access to quality supports and services 
regardless of where they are born.
    Today, we have a window of opportunity for federal 
leadership to stabilize and strengthen the three-legged stool 
as a result of the reauthorization of SCHIP, the additional 
funding in the Recovery Act, and the potential for early 
learning challenge grants. As you consider the federal role, 
please remember that learning begins at birth, that 1 year of 
pre-Kindergarten is not enough, and that vulnerable children 
have the most to gain from public policies that support their 
early development.
    Let me close by saying it is time to stop debating the 
importance of the early childhood years. Neuroscience research 
shows that the brain develops at an unprecedented pace during 
the first year of life. Social science research shows children 
who experience high quality, nurturing environments starting at 
birth are better prepared to succeed when they enter school, 
and economic analyses show positive returns in investments from 
early intervention programs, especially those that target the 
most vulnerable children.
    The research is solid. Let us stop debating this and start 
debating the policy response.
    Thank you.
    [The statement of Ms. Stebbins follows:]

 Prepared Statement of Helene Stebbins, Project Coordinator, National 
                     Center on Children in Poverty

    Good morning Chairman Miller and members of the Committee. Thank 
you for the invitation to testify today. I am the project coordinator 
of Improving the Odds for Young Children, a project of the National 
Center for Children in Poverty at Columbia University. I also work with 
the Birth to Five Policy Alliance, a pooled fund from seven private 
investors to improve state policies for vulnerable children in the 
earliest years.
    I am here today to talk to you about the state of state early 
childhood policies, and to urge you to think comprehensively about the 
range of policy options that support early learning. To thrive, young 
children need regular visits to the doctor even when they are healthy; 
they need stimulating early learning opportunities; and they need 
stable, nurturing families who have enough resources and parenting 
skill to meet their basic needs. These are the ingredients that put 
young children on a pathway to success.
    Early childhood policy that is informed by research improves the 
odds that young children will in fact have good health, positive early 
learning experiences, and strong, nurturing families to get them off to 
the right start. State policy choices are especially important to low-
income families whose young children lack access to the kinds of 
supports and opportunities that their more affluent peers receive. In a 
nutshell, focusing on state policy choices that support early childhood 
development matters because:
    1. Compelling research supports the lifelong importance of early 
childhood development. Both brain science and developmental research 
show that the quality of the earliest relationships and experiences set 
the stage for school success, health, and future workforce 
productivity. These experiences shape the hard wiring of the brain, 
which in turn sets the stage for how children approach life, how they 
learn, how they manage emotions, and how they relate to others. Once 
brain circuits are built, it is hard to change behavior. Thus, these 
early experiences set the stage for future development.\1\
    2. There is hard economic evidence that smart investments in early 
childhood yield long-term gains. More than 20 years of data on small 
and large-scale early intervention programs show that low-income young 
children attending high-quality programs are more likely to stay in 
school, more likely to go to college, and more likely to become 
successful, independent adults. They are less likely to need 
remediation, be arrested, or commit violent crimes. The return on 
investment of ensuring that young children and their caregivers have 
access not only to health care, but to mental health care when needed, 
also shows reduced health care costs when the children become 
adults.\2\
    3. Without support, low-income families cannot provide the basic 
necessities that their young children need to thrive. The official 
poverty level in 2009 is $18,310 for a family of three,\3\ but research 
shows that it takes twice this amount to provide basic necessities, and 
in many places it costs even more.\4\ To earn twice the poverty level 
($36, 620), a single parent with two children working 35 hours per week 
would have to earn almost $20.00 an hour, which is more than three 
times the federal minimum wage. Nationally, 10 million children under 
the age of 6 (43 percent) live in families earning twice the poverty 
level or less. The younger the children, the more likely they are to be 
in poverty, and poverty is directly related to poor health and 
education outcomes.
    <bullet> Health. Poor and low-income children are less likely than 
their more affluent peers to have visited a doctor or a dentist in the 
last year. The number of risk factors they experience as children are 
directly related to early morbidity, cardiac conditions, substance 
abuse, smoking, and other behaviors that have high-cost implications 
for health care when they become adults.\5\
    <bullet> Education. The achievement gap begins long before school 
starts, and continues, absent intentional interventions. At age 4, poor 
children are 18 months behind their more affluent peers (on average), 
and the gap is still present at age 10.\6\ By third grade, children 
from middle-class families know about 12,000 words; children in low-
income families only about 4,000 words.\7\
    Increasingly, policymakers understand the research showing that the 
foundation for learning and healthy development is established between 
birth and age five. But too often the policy response to this knowledge 
is narrow, focusing on only one program or funding stream. Improving 
the Odds for Young Children seeks to raise the level of the debate by 
offering a menu of policy options, organized by a framework that 
promotes three dimensions of development: health, education, and family 
economic security.
    Think about these three dimensions as three legs of a stool. Strong 
public policies in each of these areas are essential to balance the 
stool and provide a stable foundation for healthy development and 
learning. If we look at the policy profiles collectively, we see a lot 
of wobbly stools for young children.
    [State specific profiles showing each state's policy choices are 
available on the NCCP web site at: http://www.nccp.org/profiles/early--
childhood.html. A complete list of data sources appear on pages 5-6 of 
the profiles.]
Health and Nutrition
    Healthy development begins long before a baby is born with the 
health of the mother before and during pregnancy. After birth, 
children's developmental needs change as they grow. Early 
identification of risks and delays happens more often when children 
have regular access to a primary care medical home. Hunger, a vision or 
hearing impairment, or maternal depression can inhibit early childhood 
development, but most of these threats can be resolved with early 
identification and access to appropriate services. The American Academy 
of Pediatrics recommends healthy children visit the doctor 10 times 
before their second birthday, and most children will require additional 
visits as their immune systems develop.
    Improving the Odds for Young Children finds that:
    <bullet> 86 percent of states provide access to public health 
insurance for young children in low-income families. It takes at least 
twice the poverty level for a family to ensure that young children have 
access to even basic necessities, and 44 states meet the 200 percent of 
poverty threshold for access to Medicaid or the State Children's Health 
Insurance Program (SCHIP).
    <bullet> Many children who are eligible for Medicaid are not 
receiving the dental and health screenings that are consistent with 
pediatric practice and can prevent or reduce future problems. To 
encourage outreach to children who are eligible for Medicaid, the 
federal government sets a benchmark of 80 percent of enrolled children 
receiving at least one health screen each year. Seven states--
Connecticut, Delaware, District of Columbia, Iowa, Maine, 
Massachusetts, and Rhode Island--report that more than 80 percent of 1- 
and 2-year-olds receive at least one screening. Arkansas has the lowest 
screening rate for infants and toddlers: 36 percent. For children ages 
3-5, only Delaware, District of Columbia, Iowa, and Massachusetts meet 
the 80 percent benchmark, and Nevada has the lowest rate: 32 percent.
    <bullet> Few states allow children who are at-risk for 
developmental delays to receive early intervention services. States 
define who is eligible to receive early intervention services that are 
funded, in part, through the federal Individuals with Disabilities 
Education Act--IDEA (Part C). Only six states choose to include 
children who are at-risk for developmental delays in their eligibility 
definition.
    <bullet> Few states allow Medicaid reimbursement for the use of an 
age-appropriate tool to diagnosis mental health problems. The 
Diagnostic Classification of Mental Health and Other Developmental 
Disorders in Infancy and Early Childhood (DC:0-3) allows for 
developmentally appropriate screening and assessments of mental health 
disorders in children from birth to age 3. Only four states, Florida, 
Maine, Minnesota, and Nevada permit the use of DC:0-3 when seeking 
Medicaid reimbursement.
Early Care and Education
    State policies to promote early care and education include those 
that promote access to quality child care and/or state prekindergarten 
programs. Researchers and economists agree that high-quality early care 
and education programs can improve the odds of success for low-income 
children. But to benefit, young children have to be in high-quality 
early education settings that meet the needs of working parents. 
Quality early education programs are expensive and out of reach for 
many families. Full-day child care for one child can cost $10,000 or 
more per year,\8\ which is a substantial cost when half of all families 
with children under age 6 earn below $45,500.\9\
    Improving the Odds for Young Children finds that:
    <bullet> 43 states (including the District of Columbia) recognize 
that learning starts before kindergarten by funding a state 
prekindergarten program (pre-k) or Head Start. But there is significant 
variation in state investments. In 2007, New Jersey invested $477 
million to serve 20 percent of 3- and 4-year-olds at $10,494 per child 
enrolled. Nevada invested 3 million to serve 1.5 percent of 3- and 4-
year olds at $3,322 per child enrolled.
    <bullet> Access to child care is still inadequate, especially for 
low-income children. Only 21 states provide access to child care 
subsidies for all families earning 200 percent of the federal poverty 
level, and income eligibility limits for a family of three range from 
117 percent of poverty in Nebraska to 232 percent in Maine. Access to a 
child care subsidy does not guarantee a subsidy, and ten of these 21 
states keep a waiting list because funds are insufficient to serve 
eligible families. Only Rhode Island makes child care subsidy an 
entitlement for eligible families.
    <bullet> Access to services that support the healthy development of 
infants and toddlers is very limited. From birth through age 2, 
children are less likely to have access to early childhood programs 
than children ages 3 through 5. (See graphic.) While it is currently 
impossible to aggregate the number of children enrolled in early 
childhood development programs (children are enrolled in multiple 
programs so the aggregate overstates the number of actual children), it 
is still obvious that most low-income children are not enrolled in any 
of the major early childhood programs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    <bullet> State child care licensing requirements are not promoting 
nurturing, high-quality care. Although almost half the states (23) have 
child care licensing standards that require infants and toddlers to be 
assigned a consistent primary care provider, only eight states meet 
recommended standards* for staff/child ratios and maximum class sizes 
so that child care providers can provide the nurturing care that 
infants and toddlers need. In Arkansas, Mississippi, and Texas, state 
child care licensing laws allow one person to take care of as many as 
nine children who are 18 months old. Licensing standards for older 
children are not much better. Just over a quarter (15) of the states 
meet the recommended licensing standards for 4-year-old children in 
child care. Florida allows one adult for every 20 4-year-olds, and 
there is no limit on the maximum class size.
---------------------------------------------------------------------------
    *American Academy of Pediatrics, American Public Health 
Association, National Research Center for Health and Safety in Child 
Care, National Research Council, and National Association for the 
Education of Young Children make different recommendations on ratios 
and class size, but they generally do not exceed one adult for every 
four 18-month-olds and a maximum class size of eight, and a ratio of 
one adult for every 10 4-year-olds and a maximum class size of 20.
---------------------------------------------------------------------------
Parenting and Economic Supports
    Helping parents helps young children. To the extent that policies 
protect the health of parents, ensure that parents have adequate 
material resources, and promote healthy parent-child relationships 
starting at birth, they increase the odds of healthy development and 
early school success for young children. There are three types of 
policies that can be especially helpful:
    1. Policies that reduce economic hardship. A combination of minimum 
wage increases, tax policies, and adequate access to benefits that 
allow parents to work will increase family resources.
    2. Policies that provide treatment for health and mental health 
conditions. Low-income adults are disproportionately in poor health, 
and disproportionately experience conditions like depression that 
impair their ability to parent effectively. These are treatable 
conditions, but too many low-income parents have no health insurance.
    3. Policies that protect time for parents to bond with their 
babies. The quality of an infant's early relationships lays the 
foundation for future growth and development. State policies can 
strengthen this foundation by making it economically possible for 
parents to take time off from work.
    Improving the Odds for Young Children finds that:
    <bullet> Almost half the states (24) are reducing economic hardship 
by setting the minimum wage above the federal minimum of $6.55 per 
hour, and 5 states exceed $8.00 per hour.
    <bullet> State efforts to implement tax policies that can promote 
family economic security are uneven. In 15 of the 42 states that taxed 
family income in 2006, a family of three is not exempt from personal 
income tax when family income is below the poverty level. California 
exempts a single-parent family earning up to $42,400, or 255 percent of 
the poverty level, while Alabama taxes the same family earning as 
little as $4,600, or 28 percent of poverty. Twenty states reduce the 
tax burden on low-income working families through a state earned income 
tax credit (EITC), but only 15 make it refundable when families have no 
tax burden. The credit ranges from 5 percent of the federal EITC in 
three states, to more than 40 percent in two states: Minnesota and 
Wisconsin.
    <bullet> In most states, low-income children and pregnant women 
have access to public health insurance but parents do not. 86 percent 
of states (44) set income eligibility at or above 200 percent of 
poverty for pregnant women and young children, but only 12 states cover 
parents at 200 percent of poverty. More than half of states set income 
eligibility below 100 percent of poverty for working parents.
    <bullet> Few parents, and even fewer low-income parents, can afford 
to stay home with their newborn and establish a strong relationship. 
Only six states provide paid medical/maternity leave, and most states 
only provide it to mothers who give birth through a temporary 
disability insurance policy. Only California and New Jersey offers it 
to all working parents after a birth or adoption. Just over half of the 
states (27) exempt single parents receiving public assistance 
(Temporary Assistance for Needy Families--TANF) from work requirements 
until the youngest child reaches age 1, while just under one-half of 
the states (24) reduce the TANF work requirements for single parents 
with children under age 6.
    There are many choices that can help balance the three-legged stool 
of early childhood policy. Improving the Odds for Young Children 
focuses on state policy choices, but federal resource allocations and 
regulations shape many of these choices. Improving the Odds shows the 
tremendous variation in the policy choices that states make, and 
federal policies can help level the playing field so children have 
access to quality supports and services regardless of where they are 
born.
    We have a window of opportunity for federal leadership to stabilize 
and strengthen the three-legged stool with the reauthorization of 
SCHIP, the additional funding for early childhood programs in the 
Recovery Act, and the potential for early learning challenge grants. As 
you consider the federal role, please remember that learning begins and 
birth, that one year of pre-kindergarten is not enough, and that 
vulnerable children have the most to gain from public policies that 
support their early development.
    It is time to stop debating the importance of the early childhood 
years.
    <bullet> Neuroscience research shows the brain develops at an 
unprecedented pace during the first year of life.
    <bullet> Social science research shows children who experience 
high-quality, nurturing environments, starting a birth, are better 
prepared to succeed when they enter school.
    <bullet> And economic analyses show positive returns on investments 
from early intervention programs, especially those that target the most 
vulnerable children.
    The research is solid. Let us stop debating this and start debating 
the policy response.
                          additional resources
PowerPoint Presentation on the Research Case for Investing in Early 
        Childhood Policies: http://www.nccp.org/downloads/
        ResearchCaseSept08.pdf
User Guide to the NCCP State Early Childhood Profiles: http://
        www.nccp.org/profiles/pdf/EC--user--guide.pdf
Birth to Five Policy Alliance: http://www.birthtofivepolicy.org
                                endnotes
    \1\ For more information on the neuroscience of early childhood 
development, go to www.developingchild.net.
    \2\ For more information on the economic benefits of early 
childhood development, see the Bibliography on Human Capital, Economic 
Growth, and Fiscal Sustainability from the Invest in Kids Working Group 
at www.ced.org/projects/kids.php.
    \3\ These numbers are from the federal poverty guidelines issued 
annually by the U.S. Department of Health and Human Services. For more 
information, see aspe.hhs.gov/poverty/07poverty.shtml.
    \4\ National Center for Children in Poverty Family Resource 
Simulator; and Berstein, J.; Brocht, C.; & Spade-Aguilar, M. (2000). 
How much is enough? Basic family budgets for working families. 
Washington, DC: Economic Policy Institute.
    \5\ Fellitti, V. J.; Anda, R. F.; Nordenberg, D.; et al. (1998). 
Relationship of childhood abuse and household dysfunction to many of 
the leading causes of death in adults. American Journal of Preventive 
Medicine, 14(4), 245-258.
    \6\ Layzer, J. (in press). Project Upgrade in Miami-Dade County, 
Florida. Cambridge, MA: Abt Associates.
    \7\ Snow, C. (2005). From literacy to learning: An interview with 
Catherine Snow. Harvard Education Letter, July/August, 
www.edletter.org/past/issues/2005-ja/snow.shtml.
    \8\ Kinch, A. F. & Schweinhart, L. J. (2004). Achieving high-
quality child care: How ten programs deliver excellence parents can 
afford. Washington, DC: National Association for the Education of Young 
Children (NAEYC).
    \9\ American Community Survey, 2004.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Ms. Meyer?

 STATEMENT OF HARRIET MEYER, CO-CHAIR, ILLINOIS EARLY LEARNING 
                            COUNCIL

    Ms. Meyer. Thank you. Good morning, Mr. Chairman, and to 
all the members of the committee. I am Harriet Meyer, president 
of the Ounce Of Prevention Fund and co-chair of the Illinois 
Early Learning Council.
    Let me begin by thanking you for your historic investments 
in early childhood that you have made recently, and for the 
opportunity to speak with you today. This funding will truly 
help states both improve their economies now while investing in 
the future of at-risk young children.
    Know that this is no longer a cliche. Investment in 
intervention during the earliest years does indeed change 
education and life outcomes for these children.
    The Ounce Of Prevention was founded 25 years ago by a 
businessman and philanthropist, Irving Harris. Irving was far 
ahead of his time, talking about brain development, the 
importance of early childhood and its later impact on 
educational outcomes. And he shared this understanding with 
everyone, businessmen and legislators, including a state 
Senator from Illinois who would eventually become the President 
of the United States.
    Research tells us that the achievement gap is measurable 
and apparent by 18 months. We know that verbal skills, 
language, are essential to success in school.
    But at age four, children in poverty know only a fraction 
of the words that middle class children know. And we know that 
the differences between these two groups remain unchanged. They 
are unchanged at age five, age 12 and beyond.
    Many poor children suffer from chaotic, stressful 
environments without the attention and stimulation that they 
need to develop. At 18 months, a child in a low-income family 
hears about 3 million words a year, while a child in a higher 
income family hears 11 million words. That difference 
translates to a gap of over 30 million words by age four.
    And it is not just the quantity of the words that matters, 
but the quality of the language and the interactions behind 
each word that define a child's ability to communicate when he 
or she enters school.
    Think about what it is you hear when you are at a grocery 
store as you watch a mother navigate the aisle with her 
toddler. It is a full-blown discussion about the quality of the 
cereal, whether Cheerios are healthy, or what it is they should 
eat or whether or not the child should be touching the cereal 
boxes.
    Middle class parents narrate their day. We need to make 
sure that all parents are able to do the same. This means that 
we need to bridge the opportunity gap well before a child ever 
enters preschool if we are serious about ever improving high 
school graduation rates.
    Poor children start Kindergarten without the social, 
emotional and academic preparation needed to take full 
advantage of what school has to offer. They are forced into a 
cruel game of catch-up that few will ever win.
    So what are we doing in Illinois about this? Based on a 
blueprint created by the Illinois Early Learning Council, 
legislators enacted Preschool For All. Our guiding principles 
were to make quality voluntary preschool progressively 
available to all 3- and 4-year-olds with a priority for those 
most at risk of school failure first.
    However, like the federal Head Start program and Early Head 
Start program, we insisted from the beginning on expanding 
birth to three programs for at-risk infants and toddlers at the 
same time as we grew preschool programming.
    Preschool For All is unique in this country because it 
builds on existing programs in our state, not developing a new 
one. These programs range from nonprofit and for-profit child 
care centers in homes to school and community-based pre-K to 
Head Start and Early Head Start centers to home visitation 
programs with always an over-riding focus on setting high 
standards of quality and helping programs to meet them.
    Our standards require BA-level certified early childhood 
teachers and on-going professional development. Small group 
sizes and high teacher-to-child ratios ensure that teachers can 
attend to the individual needs of children.
    Curricula aligned with the Illinois Early Learning 
Standards are required to help children enter Kindergarten well 
prepared. Teams of monitors and on-site consultants ensure that 
program standards are met, and staff regularly communicate with 
parents about each child's progress and documents families' 
involvement in a wide range of parent education activities.
    In Illinois, close to 100,000 preschoolers and 16,000 
vulnerable infants and toddlers are currently benefiting from 
these standards in this program. And we sustain these programs 
through deep investments in things which we know achieve 
quality. Some of these things that this funding supports 
include scholarships to help teachers obtain credentials and 
on-going training.
    The Illinois State Board of Education has allocated over $1 
billion to the Erickson Institute in Chicago to evaluate 
results and identify trends. And Preschool For All pays for 
certified teachers in all of our infant-toddler classrooms.
    We have a program in Chicago called Educare. It is funded 
by our state program and the funding streams, and it is a 
state-of-the-art full-day, full-year school serving 150 at-risk 
children from birth to five. And we have seen significant 
improvements in vocabulary, early literacy and school 
readiness. By comparison, most of the nation's low-income at-
risk children begin school well below average on readiness 
measures.
    But all of this costs more in the short-term, but quality 
of service is what it takes to get long-term results. It is the 
only way we will ever get our poorest children scoring at the 
national average. We know how hard it is to catch children up 
if we rely on remediation after they enter our formal school 
system.
    Most importantly, though, we will know, if we succeed, that 
we will have achieved success when children enter school with a 
love of learning, parents advocating on their behalf, and the 
skills that they will need to succeed in life.
    Thank you.
    [The statement of Ms. Meyer follows:]

     Prepared Statement of Harriet Meyer, Ounce of Prevention Fund

    Good morning. I am Harriet Meyer, President of the Ounce of 
Prevention Fund and Co-Chair of the Illinois Early Learning Council. 
Let me begin by thanking you for the historic investments Congress has 
made in the American Recovery and Reinvestment Act, and for the 
opportunity to speak with you today. This funding will truly help 
states both improve their economies now while investing in the futures 
of young, at-risk children. This is no longer a cliche. Investment and 
intervention during the earliest years does indeed change education and 
life outcomes.
    The Ounce was founded 25 years ago by the businessman and 
philanthropist Irving Harris. Irving was far ahead of his time in his 
talking about brain development, the importance of very early 
childhood, and its later impact on educational outcomes. He shared this 
understanding with businessmen and legislators, including a State 
senator who eventually became the President.
    Research tells us that the achievement gap is measurable and 
apparent by 18 months. We know that verbal skills are essential to 
success in school, but at age 4, children in poverty know a fraction of 
the words that middle-class children do. We know that the differences 
between these groups are unchanged at age 5, age 12, and beyond. Many 
poor children suffer from chaotic, stressful environments without the 
attention and stimulation they need to develop. At 18 months, a child 
in a low-income family hears about 3 million words a year while a child 
in a higher income family hears 11 million. That difference translates 
to a gap of over 30 million words by age 4.
    And it is not just the quantity but the quality of the language and 
the interactions behind each word that define a child's ability to 
communicate when he enters school. Think about what you hear in the 
grocery store as you watch a mother navigate the aisle with her 
toddler. It is a full-blown discussion about what kind of cereal to buy 
and whether it is healthy. Middle class parents narrate their day. We 
need to help all parents to do the same. This means we need to bridge 
the opportunity gap well before a child enters preschool if we are 
serious about ever improving high school graduation rates. Too often, 
children start kindergarten without the social and emotional skills and 
academic preparation needed to take full advantage of what school has 
to offer. They are forced into a cruel game of catch-up that few will 
win.
    So what are we doing in Illinois to close the achievement gap?
    Based on a blueprint created by the Illinois Early Learning 
Council, legislators enacted Preschool For All. Our guiding principles 
were to make high quality, voluntary preschool progressively available 
to all 3 and 4-year-olds, with priority for those most at risk of 
school failure. Like the Federal Early Head Start program, we began at 
birth by expanding birth to three programs for at-risk infants and 
toddlers at the same time we grew preschool programming. Demand has 
been so strong for birth to three programs, that we are looking to 
increase the amount this year. Preschool for All is unique because it 
builds on existing programs. Those programs range from non-profit and 
for-profit child care centers and homes, to school and community-based 
PreK, to Head Start and Early Head Start centers, to home visitation 
programs with an overriding focus on setting high standards of quality 
and helping programs to meet them.
    The Council set forth research-backed recommendations. Our 
standards require BA-level certified early childhood teachers and 
ongoing professional development in all settings for all age groups. 
Small group sizes and high teacher-to-child ratios ensure that teachers 
can attend to the needs of each child. Curricula aligned with the 
Illinois Early Learning Standards are required to help children enter 
kindergarten well prepared to learn. Teams of monitors and on-site 
consultants ensure that program standards are met. Staff regularly 
communicates with parents about each child's progress and documents 
families' involvement in a wide range of parent education activities. 
In Illinois, close to 100,000 preschoolers and 16,000 vulnerable 
infants and toddlers are currently benefiting from these standards.
    We sustain these programs through deep investments in things that 
we know achieve quality. Funding supports scholarships to help teachers 
obtain credentials and ongoing training and consultation. The Illinois 
State Board of Education has allocated over $1 million for the Erikson 
Institute of Chicago to evaluate results and identify trends to guide 
future policy decisions and make program corrections. Preschool for All 
funds pay for certified teachers in infant-toddler and preschool 
classrooms. At Educare of Chicago--a state-of-the-art full day and full 
year program serving 150 at-risk children from birth to five--students 
are achieving significant improvements in vocabulary, early literacy, 
and school readiness skills, bringing them closer to their more-
advantaged peers. By comparison, most of the nation's low-income, at-
risk children begin school well below average on readiness measures.
    All of this costs more in the short term, but quality of service is 
what it takes to get long-term results. It is the only way we will ever 
get our poorest children scoring at the national average. We already 
know how hard it is to catch children up if we rely on remediation 
after they enter our formal education system.
    Preschool for All is an ambitious undertaking. We have not yet 
fully implemented all of the Early Learning Council's recommendations. 
We need better information systems to monitor and improve programs. We 
need increased funding for family support workers who partner with 
parents--especially those who are from linguistic and culturally 
diverse backgrounds or have children with special needs--to access 
health and social services and make successful transitions from home or 
child care to preschool and to elementary school. Lastly, we must 
create an integrated early childhood system that offers families with 
very young children better access to the highest quality services and 
supports.
    The time for early childhood investments is now. Every other 
industrialized country supports families in an intentional way so 
families can do what they are meant to do: raise children to be 
productive, educated, tax-paying members of our society. The truth is 
that many education reforms fail. Our civic institutions and workplaces 
need the participation and productivity of all our nation's children. 
We know how to do this. The research is clear and models have been 
created. Many need only be tweaked to improve and start producing real 
results. Programs not meeting our national commitment must be 
jettisoned.
    We are getting closer to setting a new direction for the next 
generation by increasing investments in early learning. We will know 
we've achieved success when:
    <bullet> All children, especially those most at risk, have access 
to high-quality early education programs beginning at birth
    <bullet> Families can choose from a range of options that best 
support their role as a child's first and most important teacher
    <bullet> Only the best teachers and caregivers are educating and 
nurturing young children
    <bullet> Sustained funding for research-based early education is 
recognized as a vital part of our nation's education system
    Most importantly, we'll know we've achieved success when children 
enter school with a love of learning and the skills they need to 
succeed.
                                 ______
                                 
    [Additional submissions of Ms. Meyer follow:]
                               appendix 1
The Mission
    Reach Out and Read makes literacy promotion a standard part of 
pediatric primary care, so that children grow up with books and a love 
of reading.
    Reach Out and Read trains doctors and nurses to advise parents 
about the importance of reading aloud and to give books to children at 
pediatric checkups from 6 months to 5 years of age, with a special 
focus on children growing up in poverty. By building on the unique 
relationship between parents and medical providers, Reach Out and Read 
helps families and communities encourage early literacy skills so 
children enter school prepared for success in reading.
            The Reach Out and Read (ROR) Model
    <bullet> In the exam room, doctors and nurses trained in the 
developmental strategies of early literacy encourage parents to read 
aloud to their young children, and offer age-appropriate tips.
    <bullet> The pediatric primary care provider gives every child 
between the ages of 6 months and 5 years a new, developmentally-
appropriate children's book to take home and keep.
    <bullet> In the waiting room, displays, information, and gently-
used books create a literacy-rich environment. Where possible, 
volunteer readers entertain the children, modeling for the parents the 
pleasures--and techniques--of reading aloud.
            The Impact as of September 2008
    <bullet> ROR programs are located in more than 4,121 hospitals and 
health centers in 50 states, the District of Columbia, Guam, Puerto 
Rico, and the United States Virgin Islands.
    <bullet> More than 3.5 million children participate in ROR 
annually.
    <bullet> More than 5.7 million new, developmentally-appropriate 
books are given to families annually.
    <bullet> More than 50,000 physicians and nurses have been trained 
in the ROR strategies of early literacy guidance.
The Challenge
    <bullet> 35% of American children entering kindergarten today lack 
the basic language skills they will need to learn to read.
    <bullet> Children who live in print-rich environments and who are 
read to during the first years of life are much more likely to learn to 
read on schedule.
    <bullet> Fewer than half of parents (48%) in the United States read 
to their young children daily.
    <bullet> Parents of children living in poverty may lack the money 
to buy books, may not have easy access to good children's books, and 
may not themselves have been read to as children, with the result that 
millions of children are growing up without books.
The Reach Out and Read National Center
    <bullet> ROR is a national, nonprofit organization founded in 1989 
at Boston City Hospital (now Boston Medical Center), through a 
collaboration of pediatricians and early childhood educators.
    <bullet> Through both public and private funding, the ROR National 
Center provides start-up and sustainability funding for books, as well 
as training and technical assistance, to ROR programs nationwide.
    <bullet> ROR is affiliated with the Department of Pediatrics, 
Boston Medical Center, Boston University School of Medicine.
    <bullet> ROR is endorsed by the American Academy of Pediatrics.
    For more information, contact the Reach Out and Read National 
Center
                                 ______
                                 

                 THE FOLLOWING STUDIES HAVE BEEN PUBLISHED IN PEER-REVIEWED, SCIENTIFIC JOURNALS
----------------------------------------------------------------------------------------------------------------
           Study              N*                                    Main findings
----------------------------------------------------------------------------------------------------------------
Needlman 19911 Boston, MA      79   Among parents in a primary care waiting room, those who had been given books
                                     and guidance were four times more likely to report reading aloud or doing
                                     it in the last 24 hours.
----------------------------------------------------------------------------------------------------------------
High 19982 Providence, RI     151   Comparing parents in clinic before ROR was instituted, versus after, there
                                     was approximately four times increase in literacy orientation (reading
                                     aloud as a favorite activity, or as a regular bedtime activity, or reading
                                     aloud more than 3x/week) in the ``after'' group.
----------------------------------------------------------------------------------------------------------------
Golova 19983 Providence,      135   In this study, families were randomly chosen to receive books and guidance,
 RI                                  or usual care. After 10 weeks, parents were surveyed. There was a ten times
                                     increase in parents reading aloud 3 nights/week, and large, statistically-
                                     significant increases in ``favorite activity'' and other measures.
----------------------------------------------------------------------------------------------------------------
High 20004 Providence, RI     205   A group of parents randomly chosen to get ROR guidance and books had
                                     significantly higher literacy orientation (as defined above), compared to a
                                     control group that got usual care. Among children 18 months and older,
                                     there were also significant increases in language scores using a modified
                                     standard language assessment, both for speaking and understanding. Language
                                     development is crucial for successful reading acquisition.
----------------------------------------------------------------------------------------------------------------
Sanders 20005 Palo Alto,      122   Among Spanish speaking, immigrant families, those who had been exposed to
 CA                                  ROR reported a doubling in the rate of frequent book sharing, defined as
                                     reading aloud 3 or more days per week.
----------------------------------------------------------------------------------------------------------------
Jones 20006 Louisville        352   Parents given books and guidance were twice as likely to report reading
                                     aloud as a favorite activity, and rated the pediatrician as significantly
                                     more ``helpful'' than did a comparison group of parents.
----------------------------------------------------------------------------------------------------------------
Mendelsohn 20017 NYC          122   One urban clinic had ROR for three years; another which was similar in all
                                     other respects, did not have ROR in place. Reading aloud by parents, and
                                     children's book ownership were significantly higher in the ROR clinic.
                                     What's more, scores on standardized vocabulary test were significantly
                                     higher in the ROR clinic--8.6 points higher for receptive language
                                     (understanding words) and 4.3 points higher for expressive (picture
                                     naming), both large, meaningful effects.
----------------------------------------------------------------------------------------------------------------
Sharif 20028 NYC              200   Comparison between two similar clinics in the South Bronx, one with ROR for
                                     3 years, one with ROR for 3 months; otherwise, very similar. Receptive
                                     vocabulary (One-Word Picture Vocabulary Tests) was higher (average 81.5
                                     versus 74.3) at the ROR site; parents scored higher on the STIQ reading
                                     section (more frequent reading aloud, more book ownership) and on the
                                     Literacy Orientation questions (book as favorite activity, and bedtime
                                     activity).
----------------------------------------------------------------------------------------------------------------
Silverstein 20029 Seattle,    180   This study sought to determine ROR's effectiveness among non-English
 WA                                  speaking families in a Seattle pediatrics clinic, with patient families of
                                     East African and Southeast Asian origin. Using a pre-/post-design, the
                                     study showed improved self-reports of home reading attitudes and practices
                                     among both English and non-English speaking families given English language
                                     books as part of ROR.
----------------------------------------------------------------------------------------------------------------
Weitzman 200410 New Haven,    137   Families with children 18-30 months were studied with waiting room
 CT                                  interviews and home visits to determine the effect of ROR on a Child Home
                                     Literacy Index and on the HOME measure of the home environment; after
                                     adjusting for multiple confounders, ROR was found to contribute positively
                                     to a child's home literacy environment; more frequent ROR encounters had a
                                     greater impact.
----------------------------------------------------------------------------------------------------------------
Needlman 200511 Cleveland,   1647   In a national sample of parents of children age 6-72 months, implementation
 OH                                  of ROR programs was associated with increased parental support for reading
                                     aloud. The study provides multi-site evidence, from 19 clinical sites in 10
                                     states, of the effectiveness of a primary care intervention strategy to
                                     promote reading aloud to young children.
----------------------------------------------------------------------------------------------------------------
*N=Number of subjects enrolled.

                            references cited
1. Needlman, R., et al., Clinic-based intervention to promote literacy. 
        American Journal of Diseases of Children, 1991. 145: p. 881-
        884.
2. High, P., et al., Evaluation of a clinic-based program to promote 
        book sharing and bedtime routines among low-income urban 
        families with young children. Archives of Pediatrics and 
        Adolescent Medicine, 1998. 152: p. 459-465.
3. Golova, N., et al., Literacy promotion for Hispanic families in a 
        primary care setting: a randomized, controlled trial. 
        Pediatrics, 1999. 103: p. 993-997.
4. High, P., et al., Literacy promotion in primary care pediatrics: can 
        we make a difference? Pediatrics, 2000.
104: p. 927-34.
5. Sanders, L.M., et al., Prescribing books for immigrant children. 
        Archives of Pediatrics and Adolescent Medicine, 2000. 154: p. 
        771-777.
6. Jones, V.F., et al., The value of book distribution in a clinic-
        based literacy intervention program. Clinical Pediatrics 
        (Phila), 2000. 39: p. 535-541.
7. Mendelsohn, A., et al., The impact of a clinic-based literacy 
        intervention on language development in inner-city preschool 
        children. Pediatrics, 2001. 107: p. 130-134.
8. Sharif, I., S. Reiber, and P.O. Ozuah, Exposure to Reach Out and 
        Read and vocabulary outcomes in inner city preschoolers. 
        Journal of the National Medical Association, 2002. 94: p. 171-
        177
9. Silverstein, M., et al. An English-language clinic-based literacy 
        program is effective for a multilingual population. Pediatrics, 
        2002. 109 e76.
10. Weitzman, C.C., et al., More Evidence for Reach Out and Read: A 
        Home-Based Study. Pediatrics, 2004. 113: p. 1248--1253.
11. Needlman, R., et al., Effectiveness of a Primary Care Intervention 
        to Support Reading Aloud: A Multicenter Evaluation. Ambulatory 
        Pediatrics, 2005. 5:209-215.

    For more information, contact the Reach Out and Read National 
Center by phone at 617-455-0600, email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f49d9a929bb4869195979c9b8180959a9086919590da9b8693">[email&#160;protected]</a>, or 
by writing to us at 56 Roland Street, Suite 100D, Boston, MA 02129. 
Visit our web site: www.reachoutandread.org
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                  
                                ------                                

    Chairman Miller. Thank you.
    Ms. Rasmussen?

 STATEMENT OF JESSIE RASMUSSEN, VICE PRESIDENT, BUFFETT EARLY 
                         CHILDHOOD FUND

    Ms. Rasmussen. Good morning, Chairman Miller and members of 
the Committee. I too would like to thank you for the 
opportunity to discuss early childhood education, one of my 
most favorite topics.
    I want to especially focus on what young children who are 
disadvantaged and their families need to make the most----
    Chairman Miller. If you bend the mic down just a little 
bit?
    Ms. Rasmussen [continuing]. Oh, okay--to make the most of 
the earliest years of their growth and development.
    Does that work?
    Chairman Miller. Yes, that is better. Thank you.
    Ms. Rasmussen. I represent the Buffett Early Childhood 
Fund, the part of Susie Buffett's foundation that is dedicated 
to leveling the academic playing field by ensuring 
comprehensive, high quality, birth-to-five services for our 
country's youngest and most vulnerable children. I also bring 
to this discussion about 20 years of being an early childhood 
provider, as well as another 20 years of doing policy work in 
this arena.
    You have already heard from others today that the research 
is clear--that wherever children are, at home with their 
parents, with grandma, with a next-door-neighbor or in a 
center-based program, children need caring, consistent and 
responsive experiences from the earliest days and weeks in 
order to be successful in school and later in life.
    Now, while the value of safe, nurturing and stimulating 
environments is relevant for all children, it is especially 
critical for children who start life already behind--those born 
at risk of failing in school and in life because of variables 
such as poverty.
    But here is the kicker: the children who would most benefit 
from the most highly effective early childhood programs are 
often the ones least likely to have access to such programs. 
Let us face it: quality costs, and families with limited 
resources can't afford the programs that would best prepare 
their children for success in school.
    Child care subsidies provided to families of low incomes 
seldom cover the real cost of quality care. Five-star and 
nationally accredited early childhood programs are rarely 
located in neighborhoods with the greatest concentrations of 
poverty. Even programs like Head Start that are designed to 
address the needs of children at risk are often inaccessible to 
families of low incomes because their parents are in jobs that 
do not allow them the flexibility to leave work to transport 
their child from a half-day program to a full-day program.
    A variety of birth-to-five program options should be 
available to meet the various needs of families. But we must 
recognize that a significant number of our families with 
children under the age of five, all parents are working, and 
thus need full-day, year-round care.
    Unfortunately, there is a historical perception that child 
care is simply about watching the kids while mom and dad work, 
while early childhood education is where the real early 
learning occurs. This false dichotomy between child care and 
early learning needs to be eliminated. Child care must be 
viewed as an early learning environment. And furthermore, we 
need to acknowledge the research that indicates children need 
continuity in their care and should not be shuffled between 
multiple early childhood programs and multiple caregivers every 
single day.
    Yes, there are major challenges in providing quality 
services across all settings, but it can be done. Common 
quality standards, clear pathways to meeting research-based 
standards of quality and sufficient funding for not only 
reaching these standards but for sustaining quality operations 
are all essential elements.
    In Nebraska, very high standards of quality are attached to 
the funds for birth-to-five services. However, there is also 
time allowed and funds available to assist programs in meeting 
those standards. The Nebraska Early Childhood funding 
structures also promote partnerships between agencies and 
programs, both public and private, because, through 
partnerships, we are able to deliver highly effective programs 
by combining and concentrating the resources of programs such 
as Early Head Start, Head Start, State Early Childhood Grants 
and the Child Care Subsidy.
    But these partnerships require that our early childhood 
policies and our early childhood practices are aligned. If 
quality is an essential ingredient for achieving positive 
outcomes for children, then we need policies that demand 
quality in all settings, and then measure it to assure 
appropriate accountability.
    And we need to be particularly diligent about ensuring 
access to quality programs for our children most at risk.
    Since continuity of care is critical both for early 
learning and positive social-emotional development, then our 
policies must promote the integration of birth-to-five services 
in one place with one set of caregivers. And because 
partnerships across programs are often the most effective way 
to achieve really good effective programs, then our policies 
across programs need to be in synch and thereby encourage 
collaboration.
    Investing in the first 5 years is not just a wise 
investment policy for the good times. It is smart policy 
especially in these most difficult economic times. As several 
leading economists across our country assert, there is no 
greater value investment than investing in the very young.
    Thank you.
    [The statement of Ms. Rasmussen follows:]

 Prepared Statement of Jessie Rasmussen, Vice President, Buffett Early 
                             Childhood Fund

    Chairman Miller and members of the Committee on Education and 
Labor, thank you for the opportunity to share some ideas regarding 
early childhood--especially as it relates to what disadvantaged 
infants, toddlers, preschoolers and their families need to make the 
most of the earliest years of growth and development.
    I represent the Buffett Early Childhood Fund, part of Susie 
Buffett's foundation in Omaha dedicated to leveling the academic 
playing field by ensuring comprehensive, high quality birth to five 
services for our country's youngest and most vulnerable children. In 
part, the Buffett Early Childhood Fund invests in building Educare 
Centers across the country. Presently, there are six sites in five 
states with four more scheduled to open in 2009 and 2010. Each Educare 
is a highly effective early care and education program especially 
designed to demonstrate what it takes to shift the odds in narrowing 
the student achievement gap.
    I also bring to this discussion my twenty years of experience as an 
early childhood provider in a variety of settings, including Head Start 
plus another twenty years in policy work, first serving as a Nebraska 
state Senator for four years and then serving as the state human 
services director in both Nebraska and Iowa. Following my tenure in 
state government, I served as the Early Childhood Policy Director for 
the Nebraska Children and Families Foundation which took the lead in 
the development and successful passage of early childhood legislation 
in 2006 that established a $60M early childhood endowment funded 
through a public and private partnership.
    The research is clear--what happens in the first five years of life 
sets the stage for what will happen in the rest of a child's life. 
Strong foundations in the very earliest years lead to positive 
outcomes--and greater economic returns--in the later years. The bottom 
line is that wherever children are--at home, with grandma, with the 
next door neighbor or in a center-based program--children need caring, 
consistent, quality experiences from their earliest days and weeks in 
order to be successful in school and later in life.
    While the value of safe, nurturing and stimulating environments is 
relevant for all children, it is especially critical for children who 
start life already behind--those born ``at risk'' of failing in school 
and in life because of variables such as poverty. In fact, the economic 
analysis of the return on the investment in early childhood that we so 
often hear about is based on studies of long-term effects of children 
at risk receiving quality early childhood education. It is our failure 
to invest in the youngest children most at risk that results in 
significant costs for states and our nation in terms of educational 
remediation, criminal justice, health care and loss of productivity.
    But here's the real kicker: the children who would benefit the most 
from highly effective early childhood programs are the ones least 
likely to have access to such programs. Families with limited resources 
can't afford the programs that would best prepare their children for 
success in school. The costs associated with quality programming--
highly qualified staff, small class size, low teacher-child ratios, 
parent engagement--make these programs prohibitive for families of low 
income. Even if scholarships were available to help parents pay for 
effective early childhood programs, few five star and nationally 
accredited programs are located in the neighborhoods with the greatest 
concentration of poverty. And families of low income often lack 
reliable transportation that would enable them to travel to where the 
programs of excellence exist.
    Access to quality early childhood programs for families of low 
income is compounded by the fact that a significant number of these 
parents with young children are working (as required in the welfare 
reform of the nineties) and need full day, year round care. However, 
many of the programs designed to serve children at risk are often only 
part day and don't operate all year. This means parents must arrange 
for care before and after the half day preschool program as well as 
make special arrangements for summer breaks. Even if parents could find 
care to fill in the gaps, the half-day preschool programs are often 
inaccessible to families of low income because parents are frequently 
in jobs that do not allow them the flexibility to leave work to 
transport their child between child care and preschool. Furthermore, we 
need to acknowledge the research that indicates children need 
continuity in care and should not be shuffled between multiple early 
childhood programs--and multiple caregivers--every single day.
    Although what many families need is full day, year round 
programming, policy makers have historically treated child care as a 
necessity for parents rather than a service for children. The child 
care subsidy available to parents with limited income is often viewed 
as only that which is needed to pay for someone to watch children while 
their parents work and is not recognized as an opportunity for early 
childhood education. This false dichotomy between child care and early 
learning needs to be eliminated--child care must be viewed as an early 
learning environment, especially since many children at risk are 
spending significant time in care by people other than their parents.
    As a consequence of this false dichotomy, the child care subsidy 
often isn't funded to pay the costs of providing high quality, early 
learning environments nor is it managed to support effective program 
operations. For example, in many states, child care subsidy payments 
are based on 50-75% of market rates. Market rates don't represent what 
it costs to deliver evidenced based standards of quality, not to 
mention that paying less than market rates doesn't buy quality. 
Additionally, many states make child care payments based on attendance 
rather than enrollment. Programs must pay their teacher salaries and 
other operational costs regardless of whether all children enrolled 
show up every day. Parents who earn slightly too much income one month 
may suddenly be ineligible for the child care subsidy and unable to pay 
the full tuition. Programs can't always hold a spot in their program 
and they certainly can't cover the lost income. The bottom line is that 
many of the very best early care and education programs don't serve 
children dependent on the subsidy because the reimbursement doesn't 
begin to address their costs.
    There are major challenges in providing quality services across all 
settings but it can be done. In Nebraska, very high standards of 
quality are attached to the state funds for birth to five services. 
However, there is also time allowed and funds available to assist 
programs in meeting those standards. For example, lead teachers in a 
preschool or infant toddler classroom are required to have a four year 
degree and endorsement in early childhood education. The program is 
given three years to achieve this standard and grant funds can be used 
to assist with post secondary education expenses. Most of the school 
districts in Nebraska have taken advantage of these early childhood 
grants and have successfully met the multiple quality criteria 
required. Annual evaluations of programs and child outcomes provide 
guidance for continuous assessment of effectiveness and need for 
program improvement. Programs are required to meet the needs of 
families so a variety of program modes are funded--home visitation, 
part day, and full day, year round programs. Common quality standards, 
clear pathways to meeting research-based standards of quality, 
sufficient funding for not only reaching these standards but for 
sustaining quality operations, and flexibility in meeting family needs 
have been essential elements in our efforts to build a comprehensive, 
highly effective, birth to five early childhood system.
    The Nebraska early childhood funding structure also promotes 
partnerships between agencies and programs because we're able to 
deliver highly effective programs by combining and concentrating the 
resources of programs such as Early Head Start, Head Start, public 
school funds, state grants and child care subsidy. In fact, the funding 
criteria require public schools to partner with Early Head Start and 
Head Start as well as with other community based programs with 
expertise and experience in serving children birth to age five. 
Additionally, the local grantee must provide a 100% match but can do 
this with other federal and state funds thereby encouraging an even 
wider circle of collaboration across multiple programs and funding 
streams.
    As a result of this partnership funding strategy, we have several 
outstanding early care and education programs providing what children 
and their parents need to make the most of the early years. In several 
communities, the public schools partner with the Early Head Start and 
Head Start provider, combining Title I funds with state early childhood 
grants and child care subsidy to provide comprehensive, birth to five 
programs of high quality that are available for the full day and full 
year. In other communities, the school partners with a visiting nurses 
program to provide high quality home visitation services with teen 
parents and also partners with a private nationally accredited early 
care and education program to care for the children while moms are in 
school.
    While these partnerships are fruitful, they are hard work to 
develop and sustain. Professionals with different training, different 
program goals, different jargon, and different management styles must 
engage in painful personal stretches to truly accomplish an authentic 
partnership that results in a really effective, integrated program. But 
most who engage in these partnerships believe passionately that this 
hard work will pay off for children and their families. Their 
dedication to the end goal sustains them through the process.
    Although we have had many successes in our journey to build a 
comprehensive, highly effective, birth to five early care and education 
system in Nebraska, there remain many challenges. Partnerships have 
great results but are difficult to achieve when each program has 
different accounting systems, data requirements, eligibility standards, 
quality criteria and professional standards. Alignment of policies and 
funding structures across programs at both the federal and state level 
would greatly enhance the power to be gained from consolidating and 
concentrating our limited resources. Furthermore, our policies need to 
be in sync with what is known about good practice. For example, if 
continuity of care is critical for both learning and positive social-
emotional development, then our policies must promote the integration 
of birth to five services in one place, with one set of caregivers. 
Finally, we need common standards and expectations for quality across 
programs--preschool, child care, home visitation--to ensure quality 
environments and experiences for children wherever they are.
    Investing in the first five years is not just a wise investment 
policy for the good times--it is smart policy especially in these most 
difficult economic times. Parents who have lost their jobs and even 
their homes are under tremendous stress--stress that is felt by the 
children as well--stress that interferes with early learning. Family 
routines and stability in home environments help children develop 
internal controls; loss of routines and stability weakens the child's 
capacity to manage their feelings. Children can't wait for the economic 
times to get better; their development can't be put on hold. More than 
ever, parents need support in maximizing their child's healthy growth 
and development.
    Investing in the first five years in these times is also smart as 
there is no greater value investment. That's why more of us in the 
private community are investing in the early years, especially for 
children at risk. To quote no less an authority that Dr. James Heckman, 
the University of Chicago professor who won the Nobel Prize in 
economics in 2000, ``In an era of tight government budgets, it is 
impractical to consider active investment programs for all persons. The 
real question is how to use available funds wisely. The best evidence 
supports the policy prescription: invest in the very young.''
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Redmon?

STATEMENT OF JIM REDMON, EXECUTIVE DIRECTOR, KANSAS CHILDREN'S 
                     CABINET AND TRUST FUND

    Mr. Redmon. Chairman Miller, members of the committee, I 
appreciate the opportunity to talk with you today about early 
childhood education and the need for a coordinated, 
comprehensive birth-to-five system.
    I serve as executive director of the Kansas Children's 
Cabinet and Trust Fund. We are directed by state statute to 
undertake a variety of roles in evaluating and funding key 
children's programs in the state.
    Let me start by saying that we strongly believe that 
program performance, accountability and outcomes need to be at 
the forefront of any early childhood system. Having a clear 
understanding of the science of early childhood enables us to 
direct resources to the most effective strategies at the right 
time for young children and their families.
    Parents, particularly those whose children are at risk, 
need to know that we are committed to a high quality, voluntary 
system to ensure that our vision, that every child is ready to 
succeed in school, is met.
    By its very nature, a quality early childhood system 
includes all the people involved in a child's life, most 
important being parent and families, but it also includes 
educators, child care and development professionals, doctors, 
nurses, and friends and neighbors in their communities. We live 
in a changing and diverse society in which how children are 
cared for has undergone a dramatic transformation over the last 
few decades.
    A majority of children receive some form of out-of-home 
care during the first 5 years from an array of both public and 
private organizations. The quality of these programs varies 
greatly. In Kansas, as elsewhere, if we coordinate and set high 
standards, there are tremendous opportunities for success, but 
high cost with poor outcomes if we don't. We are striving for a 
system that is scalable to meet the needs of the child and 
family, intensive for those infants, toddlers and preschoolers 
and their families most at risk for poor developmental 
outcomes, and supportive and informational for those not at 
high risk but who still need some help.
    But for all services, from child care to health care, need 
to use strategies that will increase the likelihood for 
positive outcomes for children, thus our interest in evidence 
and accountability.
    My focus today is on our role in the planning and initial 
implementation of a coordinated statewide comprehensive early 
childhood plan and system for young children and families. In a 
role as convener, the Children's Cabinet and Trust Fund assumes 
responsibility for bringing professionals, parents and 
policymakers together for the purposes of providing direction 
for greater coordination and integration of an early childhood 
system, to have a single vision of school readiness, and to 
break administrative and programmatic silos.
    There is broad agreement among political leaders that high 
quality early childhood programs can serve as a point of 
intervention that can tip the scales and mitigate risk factors 
leading to children not being ready in school. A focus on the 
early years, birth to five, has been the nexus of policy and 
programming discussions and planning between the governor, 
legislators, business leaders, and the early childhood 
community.
    Through this public-private partnership, we have forged a 
broad base of support for improving the early childhood system. 
As Governor Sibelius said during her 2008 State of the State 
address, we can't afford for any of our young Kansans to be so 
far behind that they never catch up by the time they enter 
Kindergarten. When services and programs are not purposely 
coordinated on the state and local level, children and families 
have more difficulty receiving the services they need.
    The point is underscored by parents in Kansas and around 
the country. Parents tell us they have system-wide concerns 
regarding the difficulty of locating information about early 
childhood services, a lack of communication across programs, 
and difficulty in obtaining quality child care and preschool 
and health insurance.
    So we have taken a systemic approach to early childhood, 
looking at coordination across the ages of birth to five. With 
the people listed above, we crafted an early childhood plan 
that serves as a blueprint for early childhood in the state. 
The plan is comprehensive and recognizes the whole child, with 
a focus on five key areas--health care, mental health, social-
emotional development, early care and education, parent 
education, and family supports.
    We have a flexible plan that guides our work from the state 
to the local level. State agencies, business leaders, political 
leadership, child advocates and higher education all have been 
instrumental in developing and implementing the plan.
    Let me conclude with talking about three funding streams 
that embrace state planning, collaboration and accountability 
and outcomes at the state and local level--our early childhood 
block grant, pre-Kindergarten program and Smart Start Kansas. 
In all of these funding streams, we fund community-level 
collaborations that must have clear outcomes for children and 
families, utilize the best evidence to support services, and 
work together to avoid duplication.
    These are sound investments even in difficult economic 
times. In some communities, our Head Start program school 
districts, pre-K and community child care are collaborating to 
make sure we have a seamless system for 4-year-olds. And all 
those private agencies, school districts and health departments 
are working together to make sure more--don't fall through the 
cracks and get the services they need to be ready for school.
    However, there are still numerous challenges. Coordinating 
all of the funding streams for programs at a local and state 
level is difficult. A coordinated early childhood system on the 
federal level would help states deliver and manage services 
more effectively. The data systems necessary to track child 
level and program outcome level data don't always talk to one 
another or don't exist in ways that make information easy to 
act on, and the funding is not there yet to serve all the 
children we know need to be ready to help to succeed in school.
    In the end, our experience in Kansas shows that our 
investments in early childhood must be smart, have a broad base 
of support, political leadership and a focus on quality 
outcomes and accountability using the best scientific evidence 
available. We should do no less for our youngest citizens.
    [The statement of Mr. Redmon follows:]

Prepared Statement of Jim Redmon, Executive Director, Kansas Children's 
                         Cabinet and Trust Fund

    Chairman Miller, members of the committee, I appreciate the 
opportunity to talk with you today about early childhood education and 
the need for a coordinated, comprehensive birth to five system. I serve 
as the Executive Director of the Kansas Children's Cabinet and Trust 
Fund. We are directed by state statute to undertake a variety of roles 
in funding and evaluating key children's programs in the state.
    Let me start by saying that we strongly believe that program 
performance, accountability and outcomes need to be at the forefront of 
any early childhood system. Having a clear understanding of the science 
of early childhood enables us to direct resources to the most effective 
strategies at the right time for young children and their families. 
Parents, particularly those whose children who are at risk, need to 
know that we are committed to a high quality, voluntary system to 
ensure that our vision--that every child is ready to succeed in 
school--is met. By its very nature, a quality early childhood system 
includes all the people involved in a child's life--the most important 
being parents and families, but it also includes educators, child care 
and development professionals, doctors, nurses, and friends and 
neighbors in their communities. We live in a changing and diverse 
society in which how children are cared for has undergone a dramatic 
transformation over the last few decades. A majority of children 
receive some form of out-of-home care in the first five years, from an 
array of both public and private organizations. The quality of those 
programs varies greatly. In Kansas, as elsewhere, if we coordinate and 
set high standards there are tremendous opportunities but high costs 
with poor outcomes if we don't. We are striving for a system that is 
scalable to meet the needs of the child and family--intensive for those 
infants, toddlers and preschoolers and their families most at risk for 
poor developmental outcomes and supportive and informational for those 
not at high risk but who still need some help. But all services, from 
child care to health care, need to use those strategies that will 
increase the likelihood for positive outcomes for children--thus our 
interest in evidence and accountability.
    My focus today is on our in role in planning and the initial 
implementation of a coordinated statewide comprehensive early childhood 
plan and system for young children and families. In our role as a 
convener the Children's Cabinet and Trust Fund assumes responsibility 
for bringing professionals, parents and policy makers together for the 
purpose of providing direction for greater coordination and integration 
of an early childhood system, to have a single vision of school 
readiness and break administrative and programmatic silos.
    There is broad agreement among political leaders that high quality 
early childhood programs can serve as a point of intervention that can 
tip the scales and mitigate risk factors leading to children not being 
ready to succeed in school. A focus on the early years-birth to five-
has been nexus of policy and programming discussions and planning 
between the Governor, legislators, business leaders, and the early 
childhood community. Through this public-private partnership, we have 
forged a broad base of support for improving the early childhood 
system. As Governor Sibelius said during her 2008 State of the State 
Address, ``We can't afford for any of our young Kansans to be so far 
behind that they never catch up by the time they enter kindergarten.''
    When services and programs are not purposefully coordinated on the 
state and local level, children and families have more difficulty 
receiving the services they need. This point is underscored by parents 
in Kansas and around the country. Parents tell us that they have 
system-wide concerns regarding the difficulty of locating information 
about early childhood services, a lack of communication across 
programs, and difficulty obtaining quality child care and pre-school 
and health insurance.
    So, we have taken a systemic approach to early childhood--looking 
at coordination across the ages of birth to five. With the people 
listed above, we crafted an early childhood plan that serves as a 
blueprint for early childhood in the state. The plan is comprehensive 
and recognizes the whole child, with a focus on five key areas--Health 
Care, Mental Health and Social-Emotional Development, Early Care and 
Education, Parent Education and Family Supports. We have a flexible 
plan that guides our work from the state to the local level. State 
agencies, including our Departments of Education, Social and 
Rehabilitation Services, Health, Head Start Association, state child 
care resource and referral agency, business leaders, political 
leadership, child advocates and higher education all have been 
instrumental in developing and implementing the plan.
    Let me conclude with talking about the three funding streams that 
embrace state planning, collaboration, accountability and outcomes at 
the state and local levels--our Early Childhood Block Grant, Pre-
Kindergarten program and Smart Start Kansas. In all of these funding 
streams, we fund community-level collaborations that must have clear 
outcomes for children and families, utilize the best evidence to 
develop services, and work together to avoid duplication. These are 
sound investments, even in difficult economic times. In some 
communities our Head Start programs, school districts, PreK and 
community child care are collaborating to make sure we have a seamless 
system for at risk 4 year olds. In others, private agencies, school 
districts and health departments are working together to make sure at 
risk newborns don't fall through the cracks and get the services they 
need to be ready for school.
    However, there are still numerous challenges. Coordinating all of 
the funding streams for programs at a local and state level is 
difficult. A coordinated early childhood system on the federal level 
would help states to deliver and manage services more effectively. The 
data systems necessary to track child level and program level data 
don't always talk to one another or don't exist in ways that make the 
information easy to act on; and, the funding is not there yet to serve 
all the young children we know need help to be ready to succeed in 
school.
    In the end, our experience in Kansas shows that our investments in 
early childhood must be smart--have a broad base of support, political 
leadership and focus on quality, outcomes and accountability using the 
best scientific evidence available. We should do no less for our 
youngest citizens.
                                 ______
                                 
    Chairman Miller. Ms. Robinson?

 STATEMENT OF HOLLY ROBINSON, COMMISSIONER, GEORGIA DEPARTMENT 
                   OF EARLY CARE AND LEARNING

    Dr. Robinson. Good morning, and thank you for this 
opportunity.
    As the commissioner of the Georgia Department of Early Care 
and Learning, we have a very unique situation. We are one of 
only three states in the United States that has an entire 
department dedicated to zero to five.
    In that department, we do all of the Georgia pre-K program. 
We do all of our services for child care licensing and 
regulations, as well as the Georgia Care Council and all of the 
other things that go into a department that covers zero to five 
for a large state like Georgia.
    The Department of Early Care and Learning was created in 
July of 2004 with the foresight and vision of our governor, 
Sonny Perdue, to bring all of these resources together so that 
they could be better coordinated and therefore much better 
serve the children in the state of Georgia.
    The legislative purpose of our department is to infuse a 
culture of education in zero-to-five population. It streamlines 
all of our services, as well as improving quality, 
affordability and availability of child care.
    Our budget in the department runs over 450 million, and we 
serve and impact over 400,000 children every day in the state 
of Georgia.
    The mission and vision of our department is very, very 
important, because what our mission and vision does is it very, 
very much focuses on quality, quality in early learning 
experiences, increasing school readiness, accessing quality and 
based on measurable, research-based standards.
    In 2008 and 2009, Georgia's pre-K program, which is one of 
the preeminent programs in the United States, was entering its 
15th year. The Georgia pre-K program was established in 1993, 
and it is solely funded by the Georgia Lottery for Education. 
More than 860,000 pre-K students have been served since 1993, 
and one million will be served this fall, this September, and 
we are very, very excited about our one millionth child to be 
served in the Georgia pre-K program.
    We have comprehensive standards for our classroom. We have 
a statewide child assessment program that is based on the work 
of Dr. Michael's work. We have on-site classroom monitoring, 
and we have a resource coordination program. So it is a very 
solid, research-based program in the state of Georgia.
    The program, most uniquely, is a voluntary universal 
program. Parents have a choice whether they want to send their 
child to this program or not. But if they do, it is a fully 
funded program. Children must live in Georgia, be age eligible, 
and we serve now almost 60 percent of the children in Georgia. 
When we finish this year, because the governor has put 3,000 
more new slots in for this year, so we will be serving the next 
school year 82,000 children.
    It is also a public-private program, where many of our 
providers are private mom-and-pop shops or some of the large 
chains and our public school system. We also work with the 
military, with the technical college system, with charter 
schools, with university lab schools, so we really reach across 
the entire state.
    There has been a lot of discussion as whether a program 
should be targeted or universal, and we have a lot of research 
and backup that will show us that our heterogeneous program is 
a strong program and is effective for all of the students. Our 
program is a full day. It is 180 days per year as a regular 
school year, 5 days per week. Our teachers are credentialed. 
Over 80 percent of them now have degrees in early or elementary 
childhood, and the final 20 percent have associates degrees.
    We measure up to quality in our state program. we have nine 
out of 10 of the quality standards that NEER requires. But our 
statewide program is driven by standards and by child 
assessment that is focused on standards as well.
    One of the major things we do, since it is part of my 
department, as well, that is we work very closely with Head 
Start. We have a full collaboration with the Head Start office, 
the regional Head Start office. We have signed a joint letter 
of agreement between myself and the regional Head Start 
manager, the federal appointee, so that the Head Start 
providers across the state see that this is a viable 
partnership.
    And what we have done is we have moved many of the 4-year-
olds that were served by Head Start into the Georgia pre-K 
program, thereby serving more 3-year-olds in the state in Head 
Start. Those 4-year-olds that move into the Head Start program 
to Georgia pre-K still receive the wrap-around services from 
Head Start. So what this enables us to do is serve more 
children in quality programs across the state of Georgia.
    In conclusion, I would just like to say three things. We 
base all of our programs in Bright From The Start on 
accountability and academic achievements based on data and 
research. I believe we need flexibility to meet the individual 
needs of the state, because in our state, for example, we have 
a very large, well-funded pre-K program which would have 
different needs than other states.
    And finally, I would like to just mention that Georgia, as 
one of three states that has a full education department for 
early learning zero to five, it would be very, very helpful to 
us if you all would help instruct the U.S. Department of 
Education that we are a fully fledged department, because we 
cannot apply for competitive grants, funds don't flow--even if 
they are zero-to-five funds--do not flow to us in our 
department.
    We don't get any direct dollars. All of the dollars that 
are zero-to-five for the state of Georgia flow either to our K-
12 department or to our Department of Human Resources, and then 
I have to get my little percentages from them, with overheads 
and such subtracted. So it would be very helpful if the United 
States Department of Education would recognize those states 
that do have a fully-fledged Department of Early Learning.
    The other two states that have Departments of Early 
Learning are Massachusetts and Washington State, and we have 
all worked together and met together and discussed this, and I 
know it is something that would make a great deal of difference 
to us.
    As far as the Georgia pre-K program is concerned, one of 
the things that we talk about all the time is that it is a 
program that serves now, by next year, almost 60 percent of our 
students. We are at 58 percent this year, serving just over 
79,000 students. But what we do is we talk about it being a 
market-driven program. Since it is a voluntary universal 
program, it will never be 100 percent, because there will be 
some parents that choose a half-day program for their children 
or choose a religious school for their program.
    So what we are trying to do in Georgia is be sure that our 
waiting lists are going down, that our number of slots, our 
number of children served are going up so that, hopefully 
within a few years, we will be meeting our market demand, and 
we will be serving as many children as we possibly can in 
Georgia.
    Thank you.
    [The statement of Dr. Robinson follows:]

 Prepared Statement of Holly A. Robinson, Ed.D., Commissioner, Georgia 
                 Department of Early Care and Learning

    The Georgia Department of Early Care and Learning, also known as 
Bright from the Start, was created on July 1, 2004. The creation of 
Bright from the Start merged the Office of School Readiness, the Office 
of Regulatory Services Child Care Licensing Division, and the Georgia 
Child Care Council. Bright from the Start has been in operation since 
October 1, 2004.
    The legislative purpose of Bright from the Start included the 
following objectives: to infuse a culture of education in the zero (0) 
to five (5) population; to streamline early childhood services; and to 
improve the quality, availability, and affordability of child care. 
Bright from the Start operates with a $450 million budget and impacts 
over 400,000 students each day.
    The mission of Bright from the Start: Georgia Department of Early 
Care and Learning is to deliver exemplary early care and education 
programs that improve the quality of early learning experiences, 
increase school readiness, and improve overall school performance.
    The vision of Bright from the Start: Georgia Department of Early 
Care and Learning is to increase the number of Georgia's children and 
families who have access to quality early care and learning programs. 
As well as ensuring that more of Georgia's early care and learning 
programs achieve and maintain higher, measurable, research-based 
standards.
    Georgia's Pre-K Program was established in 1993. It was funded by 
the Georgia Lottery for Education and more than 860,000 Pre-K Children 
have been served since 1993 (one million will be served by the Fall 
2009). In the 2008-2009 school year there were 79,000 Pre-K slots.
    The program has established comprehensive classroom standards and a 
statewide child assessment based on Dr. Meisel's work. The program also 
requires on-site classroom monitoring and resource coordination.
    Georgia's Pre-K program is a voluntary universal program. Children 
must live in Georgia and be age eligible in order to participate, there 
is no income requirement. Fifty-six percent of Georgia's four year olds 
are served.
    Georgia's Pre-K program is a public/private partnership that 
operates in both public and private sites: 59.30 percent of the sites 
are private; 39.34 percent of the sites are operated by a local school 
system; and 1.36 percent are operated by ``Other'' organizations 
(Military, Charter, Technical Schools, Vocational Education, Refugee 
Centers, University Lab Schools).
Targeted or Universal
    Most school failure (in absolute numbers) is for children from 
socio-economic levels above the poverty level. Though research has 
shown high quality programs have the largest effect sizes for 
disadvantaged children, substantial effects have been detected for 
children from all socio-economic levels. Publicly funded pre-k for all 
might produce a paradoxical but worthwhile effect in terms of 
educational gains. Disadvantaged children benefit (in comparison to 
their gains with targeted programs) but so do more advantaged children. 
Accordingly, while such universal programs may result in higher levels 
of achievement for the disadvantaged, they might leave a larger 
achievement gap. If a universal preschool program substantially 
increased the enrollment of disadvantaged children, however, the 
achievement gap might also be reduced.
    Family income presents a moving target, due to the fact that most 
poverty is transient-meaning the families are below or above the 
poverty line at different times. Many families move from one side of 
the cut-off to the other during the school year; some families manage 
to enroll their children despite having incomes above the cut-off; and 
others who qualify are not eligible. Evidence suggests that program 
effects on disadvantaged children may be larger when programs serve 
children from diverse backgrounds. (Barnett, W. S. (2008). Preschool 
Education and Its Lasting Effects: Research and Policy Implications. 
Boulder and Tempe: Education and the Public Interest Center & Education 
Policy Research Unit.)
Georgia Pre-K Program Essentials
    The Georgia Pre-K program is a full year, full day program, 
carefully aligned with the State's K-12 program. This means children 
are in the program 180 days per year (36 weeks), five days per week, 
for 6.5 hours each day.
    The Georgia Pre-K program includes a credentialed teaching staff. 
Lead teachers are either certified and/or hold a Bachelor's degree in 
elementary or early childhood education (79.85%), or they have an 
Associate's Degree in Early Childhood education (20.15%). Assistant 
teachers must meet a minimum credential requirement of the Child 
Development Associate (CDA) or its equivalent.
    The Georgia Pre-K program meets 9 out of 10 quality standards 
(NIEER). Quality is also measured through the mandated best practice 
teacher training directly related to instruction, assessment and 
program quality; the statewide child assessment focused on standards 
driven instruction; the onsite technical assistance to facilitate 
quality instruction; the enhanced probation process to eliminate 
programs with continued poor quality; and, finally, the curriculum 
review process conducted by Dr. Susan Landry (UT) to ensure that the 
approved curricula correlate directly to Pre-K standards and child 
assessments (the review is conducted on a 3 year cycle).
Head Start Collaboration
    The Head Start State Collaboration Office, as part of Bright from 
the Start: Georgia Department of Early Care and Learning, fosters 
partnerships between federally funded Head Start programs and early 
childhood programs receiving state or federal funds to improve the 
quality of services to low-income children and their families in 
Georgia. The Head Start Collaboration office aligned all Head Start 
programs with Georgia Pre-K standards, which are aligned with Georgia 
K-3 standards. A joint letter of support for blended programs was sent 
to all Head Start programs from the Commissioner and the Regional 
Manager for Head Start.
    In the 2007-2008 school year, 26,355 three and four-year-old 
children were served by Head Start. Of those served, 14,882 were three-
year-old children, 11,473 were four-year-old children, and 2,519 
children were enrolled in blended Head Start/Georgia's Pre-K programs. 
The number of three year olds served by Head Start programs has been 
increasing because of blended classes for four year olds with Georgia 
Pre-K.
Conclusion
    As evidenced by the Georgia Pre-K program, accountability and 
academic achievements for Pre-K programs must be based on data and 
research. Also, Pre-K programs need the flexibility to meet individual 
state needs. Finally, the U.S. Department of Education must recognize 
that some states, like Georgia, that have an independent State Early 
Childhood department, and recognizing only one SEA means that those 
independent agencies cannot directly receive the dollars for their 
educational purposes.
                                 ______
                                 
    [Additional submission of Dr. Robinson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                ------                                

    Chairman Miller. Mr. Soifer?

 STATEMENT OF DON SOIFER, EXECUTIVE VICE PRESIDENT, LEXINGTON 
                           INSTITUTE

    Mr. Soifer. Chairman Miller, Congressman McKeon, members of 
the committee, I deeply appreciate the opportunity to 
participate in your committee's ongoing consideration of this 
very important topic and to serve on a panel that is doing such 
good work around the country.
    As Congress deliberates a larger federal role in early 
childhood programs, the particular details with which it does 
so are going to be critical to the likelihood of success of 
that investment. There is perhaps no more visible or more 
persuasive advocate of high quality early childhood programs 
for children from economically disadvantaged households that 
increase their readiness to learn with cognitive and important 
non-cognitive skills. Dr. Heckman also, however, warrants that 
government programs should not try to substitute for what 
middle class parents are already doing.
    Research tells us that quality parenting is the most 
consistent and reliable predictor for a child's educational 
outcomes. Now, high quality early childhood programs absolutely 
can produce results and mitigate risk factors, measurable in 
such areas as vocabulary and math skills, from age four through 
the sixth grade, particularly for economically disadvantaged 
students, such as those served by Head Start.
    As this committee has discussed previously, early childhood 
education is a landscape that is quite different in the United 
States than, for instance, elementary and childhood education. 
Because you have discussed it previously, let me just point out 
that, of children in the United States enrolled in early 
childhood programs, 80 percent are enrolled in programs from 
private providers.
    I would also like to point out, and my written testimony 
discusses, two of the excellent Washington, DC charter schools 
that offer innovative early childhood programs with a great 
degree of success, and I would be more than happy to brief you 
at any time on some of the others. We talk at great length 
about those. It is a favorite topic of mine.
    Allowing tax dollars to follow the child honors a parent's 
choice while minimizing government entanglement. The criteria 
that a parent uses to choose a program for their child is 
definitely not the same as the criteria that we use to evaluate 
a government program. For instance, program uniformity should 
not be a policy goal of federal early childhood programs.
    It would be harmful for federal dollars to be used to 
undermine parents' ability to choose the program that they feel 
is best for their child. Federal dollars used to fund state 
programs that exclude private providers or those that have very 
difficult licensure requirements would also do considerable 
harm, where state programs that promote competition do a great 
deal to allow parents a greater freedom of choice.
    To maximize the effectiveness of federal dollars also, it 
is important that--it is noted by a study for the Center of Law 
and Social Policy that one in four state pre-K providers 
distribute funds through the local school division, through the 
local school district, without any meaningful competition. 
Policymakers should also be mindful that the success of some 
strategies in public-private partnerships is not always 
scalable to the degree that it would be most desirable.
    High quality early childhood programs are of particular 
importance to the success of high-risk kids, but there is 
little research consensus that defining the quality of early 
childhood programs can be done by measuring simply the lead 
teacher's degree in early childhood education.
    Research does raise substantial doubt that requiring lead 
teachers to earn a 4-year bachelor's degree in early childhood 
programs will improve the educational outcomes for those 
children. We can certainly identify high quality programs where 
this is the case, but we can also identify high quality 
programs where this is not the case.
    A team of researchers led by Diane Early and her colleagues 
conducted the most complete meta-analysis of research to date. 
They did not find ``Convincing evidence of an association 
between teacher's education or major and either classroom 
quality or children's academic gains.''
    Some other research has established a correlation, but has 
fallen short of establishing a cause and effect for these 
positive outcomes because of the omission of some factors, 
often including salary ranges.
    Thank you very much, and I look forward to further 
discussion.
    [The statement of Mr. Soifer follows:]

 Prepared Statement of Don Soifer, Executive Vice President, Lexington 
                               Institute

    Chairman Miller, Ranking Member McKeon, and Members of the 
Committee: As Congress considers establishing a broader federal role in 
early childhood programs, the details of how it does so are of vital 
importance. As the American taxpayer's investment in elementary and 
secondary education grows from 4.5 percent of GDP in 2004, we must 
consider the implications of new federal programs carefully.
    Nobel Laureate economist James Heckman has been among the most 
prolific and persuasive advocates for the benefits of investing in 
quality interventions for financially disadvantaged, at-risk children 
that enrich children's early cognitive and noncognitive stimulation 
(such as motivation, self-discipline and understanding of time). ``But 
it is foolish,'' he warns, ``to try to substitute for what the middle-
class and upper-middle-class parents are already doing.''
    Early childhood programs cannot substitute for the positive 
influence of good parenting on a child's development. Research tells us 
that quality parenting is the strongest and most consistent predictor 
of a child's success, but that high-quality early childhood programs do 
result in higher vocabulary scores measured from age 4\1/2\ through the 
sixth grade.
    A study by Jay Belsky and colleagues published in the journal Child 
Development in 2007 demonstrated that parenting quality significantly 
predicted all developmental outcomes measured including reading, math 
and vocabulary achievement into the fifth and sixth grade, making it 
the most important factor in a child's development. A government 
program that would cause any child to enjoy less quality parenting time 
would thus be harmful to the child's educational prospects, and one 
that instituted a lower age of compulsory attendance would do so on a 
much larger scale.
    As this Committee has discussed previously, early childhood 
education in the United States has a landscape quite different from 
that of elementary and secondary education. It can hardly be described 
as a system at all, but rather a collection of programs provided by 
non-profit and faith-based organizations, for-profit companies, Head 
Start agencies, programs run out of family homes, and programs in 
schools of all varieties.
    Charter schools whose missions center on closing achievement gaps 
for disadvantaged and minority children have come to recognize the 
value of implementing high-quality pre-kindergarten programs. Here in 
Washington, DC, some charter school leaders see a connection between 
the rapid growth of charter schools and their investment in early 
childhood programs. Innovative preK programs run by public charter 
schools, schools of choice, are achieving positive results with at-risk 
student populations. Two examples include:
    <bullet> Excel Academy, a new Ward Eight charter school for girls 
in grades preK-8 whose mission includes an early education intervention 
model for three-year-olds to promote school readiness.
    <bullet> Latin-American Montessori Bilingual Public Charter School 
in Ward Four, with three classrooms of three, four and five year olds, 
where instruction is generally in Spanish in the mornings and in 
English in the afternoons.
    Over eighty percent of children enrolled in early childhood 
programs in the United States are in privately-run programs. Allowing 
tax dollars to follow the child honors a parent's choice while 
minimizing government entanglement. Parents with the fewest options 
economically could choose between part-day or full-day programs, based 
in a home, private or government center, or even a nonprofit or faith-
based provider, as families whose incomes permit them to afford these 
choices do already.
    Similarly, as Stephen Goldsmith has noted, the methods we use to 
evaluate government programs are not always the same criteria used by 
parents to assess the outcomes of private education programs.
    Washington should not seek to define a quality program in the ways 
it has under the Elementary and Secondary Education Act, because any 
effort to do so, however well intended, has a strong likelihood of 
doing more harm than good. Program uniformity should not be a goal of 
federal early childhood education policy.
    States, of course, have different sets of regulations for 
preschools. Increasingly, we seem to be seeing state policymakers 
consider universal pre-kindergarten programs that would be offered to 
all four-year-olds regardless of income, despite the fact that no 
research consensus has emerged about the educational benefits of 
government preK for middle class children.
    It would be harmful for federal funding to undermine parents' 
ability to choose the program they feel is best for their child. 
Federal dollars used to fund state programs that exclude private or 
faith-based programs could do those programs considerable harm. So 
would grant dollars used to fund programs where faith-based early 
childhood providers face restrictive licensure requirements. On the 
other hand, state programs that promote competition would allow parents 
a greater freedom of choice.
    Public schools that provide early childhood education already 
benefit from significant advantages. They do not pay taxes and are 
often able to take advantage of subsidized facilities and operating 
support.
    With the last reauthorization of Head Start, it was required that 
programs be evaluated for meeting the diverse cultural needs of 
students. To meet such a federal mandate, providers must take the time 
and resources from some other learning opportunity, perhaps, at the 
price of a different opportunity the classroom teacher deems important 
to improving kindergarten readiness.
    To maximize the effectiveness of federal dollars, conflicts of 
interest should be avoided. Entities that distribute these funds should 
not also be recipients of funding, as Nina S. Rees, the federal 
Department of Education's former Assistant Deputy Secretary for 
Innovation and Improvement, has noted. A study by the Center for Law 
and Social Policy reported that in one-fourth of state preK programs, 
funds were distributed primarily through public schools, without 
meaningful competition from other providers.
    This could be achieved by distributing funds through statewide 
grant competitions administered by independent entities. Where school 
funding formulas are involved, a general operating fund could be 
established for community-based providers.
    Policymakers should also be mindful that the success of some 
strategies involving public-private partnerships is not always 
scaleable.
    High-quality early childhood programs are of particular importance 
to the educational success of at-risk children. But little research 
consensus exists defining the quality of early childhood classrooms by 
the lead teacher's degree in early childhood education. Research raises 
substantial doubt that requiring lead teachers to earn a four-year 
bachelor's degree will improve the educational outcomes for those 
children. We can identify high-quality programs where the lead teacher 
has a bachelor's degree, or one with a focus on early-childhood 
education. But we can also identify high-quality programs where they do 
not.
    Delivering a high-quality preschool education does require skill, 
but a policy that requires the selection of teachers by their 
educational attainment and major ``will not substitute for selecting 
teachers with the skills needed to teach at this level,'' as a team of 
researchers headed by Diane Early at the University of North Carolina 
at Chapel Hill found in the most complete meta-analysis of the research 
to date.
    Research has established a correlation between measurable, positive 
educational outcomes and teachers with bachelor's degrees. But for a 
variety of reasons, it would be a mistake to conclude that the 
bachelor's degrees are the cause of those positive outcomes, because of 
the omission of other significant variables, like teacher salary.
    President Obama last week challenged states to develop cutting edge 
programs to improve kindergarten readiness. One tactic likely to help 
Head Start programs will advance if grants to those providers that have 
continued to produce inadequate kindergarten readiness are regularly 
and fairly re-competed under the provisions of your most recent 
reauthorization. Allowing faith-based providers to join the competition 
would give more choices to economically disadvantaged households.
    In conclusion, there is a growing consensus of research that would 
support the implementation of effective early childhood programs for 
low income children that will improve their readiness to learn. But as 
Harvard Business School innovation authority Clayton Christensen 
recently put it, ``Any increase in funding should be tied to programs 
adopting what is known from sound research and from successful 
implementations, but also should be made with an eye toward continuing 
to learn what works, and for whom, since this is still highly 
uncertain.''
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you, and thank all of you for your 
testimony and your suggestions.
    Ms. Meyer, thank you for remembering Irving Harris. He was 
also obviously a mentor of mine for many, many, many years, and 
we see his legacy live on with the changes in the child tax 
credit in the stimulus bill and before that. So thank you so 
much for that.
    Ms. Rasmussen, you talk about something that is plagued us 
for some time here, and that is--and other people have touched 
on it, but the false dichotomy between child care and early 
learning needs to be--you say that it has to be eliminated. 
Child care must be viewed as an early learning environment, 
especially since many children at risk are spending significant 
time in care by people other than their parents.
    You want to elaborate? I mean, we go around and around with 
this on how--somehow we treat these situations where children 
spend a great deal of time, as you point out.
    Ms. Rasmussen. Well, I think, historically, the child care 
funding streams, at least from the federal perspective, were 
done solely as a work support for families.
    Chairman Miller. Right.
    Ms. Rasmussen. And that is absolutely still true. It is a 
work support for families. But it isn't just a necessity for 
parents. It is also an opportunity for services to children. 
And I think that, until we begin to see that wherever children 
are at, again whether it is with grandma during the day or 
whether it is in a so-called child care program, we need to 
assure that there is a common set of standards around quality 
that apply for all of those settings.
    And the irony is that, in the 1990s, we decided as a 
country that parents who were poor had to go to work in order 
to get public assistance. And if they are going to be at work, 
then, then we need to make sure that those who are caring for 
their children while they are working know and understand early 
development and know how to promote it and know how to nurture 
and promote the language development and the achievement of 
children.
    So I think we need to stop seeing child care as something 
less than an important learning environment for our children.
    Chairman Miller. I mean, obviously, it is not an issue just 
for low income or poor individuals. Millions of other Americans 
made a decision they were going to work for different reasons. 
So a spouse went off to work, and now you have two earners 
within a family.
    And obviously a very significant number of those rely on 
whatever child care arrangements they can make. It may be more 
dependent upon the length of their commute than the quality of 
the care. Will somebody stay until 6:30, 7:00 at night till I 
get home? That may be the key question that has to be asked.
    But when you have a child for that period of time I assume 
what you are telling us is that we ought to think up on the 
opportunity that exists within that care. If we can use that 
time to provide all of the needs of that child and the supports 
necessary so that they will be able to thrive and properly 
participate in our society.
    Ms. Rasmussen. Yes, and it is true for all children. It is 
particularly true for those children who are at risk. Families 
with resources can often make up the difference for mediocre 
care during the day with lots of other kinds of activities and 
the kinds of interactions that they know to have with their 
children.
    But from those families who are most at risk, it is 
particularly important that they have the opportunity to be in 
really high quality settings during the day while their parents 
are working. It is somewhat of a conundrum to really talk about 
parent choice if there really isn't parent choice.
    And parents with limited resources don't have full choices. 
They aren't able to access some of the best programs that are 
going to set their children up for success in school. And I 
think our policies need to change so that opportunity is 
available for them.
    Chairman Miller. Thank you.
    Ms. Robinson, you wanted to comment? Dr. Robinson, excuse 
me.
    Dr. Robinson. One of the things that we have been able to 
do in Georgia because we have a department that just addresses 
this is we have set up early learning standards. And are they 
practiced evenly across the state? I wish I could say they 
absolutely were.
    But it is something that all of our child care providers, 
when we license them across the state, the child care centers, 
the family homes, the family group homes, we work on 
professional development within that range as far as we have 
dollars that can do that. So we are making a serious attempt at 
raising the quality across the entire state in all of our early 
learning.
    We have also aligned our early learning standards, our zero 
to three standards, with our pre-K standards, and then our pre-
K standard are aligned with our K-3 standards. So we have tried 
very hard, and it is a process that we have been going through 
for the last couple years of aligning all of those standards. 
So that is one way you can begin to address what I agree with 
is a great conundrum.
    Chairman Miller. Ms. Meyer, how are you doing that? You 
have sort of quickly--I will come back to you later, but you 
now sort of have this universal.
    Ms. Meyer. Well, I was thinking that it is absolutely 
right. Jessie is correct that--and so are you--that all parents 
worry about child care. But the children at greatest risk 
suffer enormously if they don't get it. One would argue that 
your (Ms. Rasmussen's] grandchild will do fine if you put her 
in a black box for the next 5 years.
    But I think the opportunity--and I really want to resonate 
with what you had to say, Mr. Soifer, that competition does 
matter. Having access and--setting standards, but having the 
ability for child care center to access Early Head Start 
dollars and access preschool dollars is the best way to ensure 
that child care will increase its quality rather than thinking 
exclusively about going via the child care funding stream and 
increasing it.
    So I think it is important to think about what can be 
accomplished at the state if we have much more flexibility. And 
I know that, at the time that Early Head Start was established, 
one of the reasons it got passed was there was a deal to ensure 
competition. And I think that the issue of competition at the 
community level is really important in not having designation 
be quite so strictly enforced.
    Chairman Miller. Competition is really popular until you 
ask somebody to engage in one. Then they like the old reliable 
stream of funding.
    But anyway, we will come back to that, because Mr. Redmon 
also raised this question about access to funds. I mean, we 
have been locked in a long battle here between a block grant of 
questionable support and stovepipes of rigidity. So we continue 
this, and I think my next speaker has something to say on that.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. McKeon. And I want to thank all of you for your 
testimony, for your expert witness, and for the work that you 
are doing for our nation's children.
    One of the things I noticed most of you mentioned in your 
testimonies was standards. Do you know which state has the 
highest standards?
    Ms. Stebbins. Standards of what? We have standards for 
different things.
    Mr. McKeon. I don't know. You all mentioned standards, and 
that seemed to be important parts of your testimony. I know 
that you said six states, I think, have some different kinds 
of--there were different kinds of standards.
    Ms. Stebbins. Okay. I will answer that question, and I 
think it also speaks to the first question, which is what does 
it take to go from a program that is a work support where 
children just need to be healthy and safe to one that promotes 
learning?
    Mr. McKeon. I was speaking of the, say--let us just pick 
out one, say learning standards, quality of learning standards.
    Ms. Stebbins. Thank you.
    The learning standards, almost every state now has early 
learning standards for children in preschool, ages three and 
four, and 25 states have them for birth to three. Now, these 
standards are on the books----
    Mr. McKeon. Back to my question. Do you know which state 
has the highest standards, then, out of those states?
    Ms. Stebbins. No, I don't have the direct answer to that. 
What I can say is that if----
    Mr. McKeon. Does anyone?
    Ms. Stebbins [continuing]. The states----
    Ms. Robinson. If you look at the NEER report, there are a 
few states that--and I can't name them off the top of my head--
that a couple states meet 10 of the 10 standards. A number of 
states meet nine of the 10 standards. Georgia is one of the 
states that now meets nine of the 10 standards, so they would--
we would certainly rank in--ranking high in the states because, 
when Chairman Miller introduced the whole topic, he said that 
there were so many states that didn't even meet five of the 
national standards. So there is a ranking process.
    But what happens is that you are--sometimes you compare a 
state that is serving 5,000 students or 8,000 students to a 
state that is serving 70 or 80,000 students, so you are not 
always comparing apples to apples as far as--but learning----
    Mr. McKeon. How would you feel about a federal standard--?
    Ms. Robinson. How would I feel about----
    Mr. McKeon [continuing]. Imposed upon 50 states?
    Ms. Robinson. Well, I think that would be difficult because 
I think there are a lot of things that each state has that are 
unique to that state, and you would have to figure out how 
states that are serving their children in both public and 
private providers, would you impose these on private providers, 
or would you only impose them on private providers if they were 
receiving the federal funds?
    Mr. McKeon. I would think there would be some who would 
like to impose standards on--a uniform standard on all 50 
states, and they would like to have it over private, public. 
There are some that would like to drive everything to private--
or excuse me, to public. I think that this is a problem.
    I mentioned in my opening statement, 69 now federal 
programs. How would you feel about adding another program on 
top of those, or how do you--would you like to see some review 
of the 69 programs over five different agencies?
    Ms. Robinson. Well, we are going back----
    Mr. McKeon. Could they be condensed? Could we look at what 
we are doing now compared to adding another new program? How do 
you feel about these kinds of----
    Ms. Robinson. Well, let me answer the first question, and 
then I will pass to someone else because I know other people 
want to speak.
    But I would say you are talking about driving everything to 
public as versus private.
    Mr. McKeon. I am not.
    Ms. Robinson. Oh, you are--well, whoever----
    Mr. McKeon. I said there are some that would.
    Ms. Robinson. All right. Well, then, whoever is saying 
that, that would be a real problem in my state, for example, 
because our public schools have been so crowded that we have a 
number of school systems that don't even serve the Georgia pre-
K program or serve our programs.
    Mr. McKeon. I think it would be a problem in 50 states.
    Ms. Robinson. Yes. All right. Well, then----
    Ms. Stebbins. I for one would welcome the conversation 
about standards. I think there is a rich discussion that is 
happening at the state level about what those are. I think we 
now have 50 different levels of standards.
    But the more important point is that the standards need to 
be comprehensive, that they need to address all domains of 
learning and not just the cognitive domain, and that meeting 
the standards requires resources.
    So to go from something that meets health and safety to 
promoting early learning requires dollars in order to do that.
    Ms. Meyer. And Representative McKeon, I would say in 
partial response to your question about 69 programs and do we 
want one more, I think if we can find ways to make it easier to 
combine the resources across those programs, that that 
combination of resources can add up to the kind of quality that 
we want to give to our children in all of the settings that 
they may be in.
    I think we have had some early success, and I think I heard 
some examples from other states where we have incentivized Head 
Start and early Head Start to partner with the public schools, 
to combine their Title I funds with their state early childhood 
education grants and then wrap it around with child care 
subsidies. But those partners----
    Mr. McKeon. You mentioned the flexibility, and that----
    Ms. Meyer. Right, and you need--but the problem is those--
every single one of those programs has a different set of data 
that you have to collect, a different set of accountability 
measures, a different eligibility standard for the 
qualification for being in the program. And it makes is very 
difficult to pull off partnerships. It takes hard work. And I 
know Jim wants to jump in on this, because it is--he 
mentioned----
    Mr. Redmon. And I would agree. I mean, I would agree with 
that. I think that it is being able to figure out a way that 
all of those different reporting requirements, all the 
different funding applications that agencies have to put in. 
All of those pieces need to be looked at in terms of 
consolidating those in some way that makes it easier for the 
states and locals to be able to apply.
    But I do have to say, back to the competition issue, that 
in Kansas, the early childhood block grant program, which is 
competitive, has figured out ways and allowed for local 
communities to be able to sort of braid and blend funding 
streams to serve kids and put them together in a way that makes 
sense so that the state funding stream is flexible to those 
communities to be able to combine with the less flexible 
sometimes federal funding streams to be able to do more for at-
risk kids.
    Ms. Robinson. Can I--am I on?
    Chairman Miller. You are on.
    Ms. Robinson. Thank you.
    And I did give you the example in Georgia that, if we could 
get the funding streams to flow to our agency, I mean, we are 
doing double-duty to try to figure out how to get the money 
that is supposed to come to zero-to-five to get it to at least 
flow to the agency that deals with the zero-to-five.
    So flexibility is absolutely necessary for each state, 
because different states clearly have different needs, 
different demographics, different programs that already exist 
within their state. But I do think accountability is very 
important. We have very stringent accountability measures in 
our state for all of our programs.
    Mr. McKeon. Thank you.
    Mr. Chairman, my time is up, but it sounds to me like, with 
69 programs, and we still have needs that aren't covered. 
Probably we should go after an approach like we did with the 
job training years ago, where we condensed many federal 
programs and put in more flexibility, and then drove the money 
out to the local areas and let them deal with those problems.
    Thank you very much.
    Chairman Miller. Thank you.
    Mr. Kucinich, recognized for 5 minutes.
    Mr. Kucinich. Thank you, Mr. Chairman. I want to thank you 
for your continued involvement in making early childhood 
education a priority for this committee and for this Congress.
    I want to thank the witnesses for sharing your expertise, 
and in some cases your life's work, on a matter of critical 
importance to our nation's children and families. And I want to 
say to the chair and to members of this committee that I look 
forward to joining you in whatever it takes to ensure that 
every child in America has access to high quality, full-day, 
full calendar year pre-Kindergarten education.
    Now, Ms. Meyer, in your testimony you discussed the state 
of Illinois' Preschool For All program, its ambitious goals, 
its unique design, and that it works with all types of 
providers to make high quality pre-Kindergarten available to 
all 3-and 4-year-olds. With the help of child care advocates 
now for several Congresses, I have crafted a bill this year. It 
is H.R. 555, the Universal Pre-Kindergarten Act, which would 
provide grants to states to establish similar universal 
programs for all 3-, 4- and 5-year-olds.
    You described some of the challenges Illinois has faced in 
the implementation of the Preschool For All program. But my 
question is, what are some of the challenges that the state 
faced in the development of a universal program, and how can 
Congress make sure that states have the resources and the 
support to enact similar universal programs? And what can 
Congress do to make sure that every family, every family with a 
young child has access to pre-Kindergarten and supportive 
services?
    Ms. Meyer. Thank you, Congressman.
    Well, bravo for you and the bill.
    First of all, I need to respectfully correct one piece of 
your understanding, and that is it is a progressively 
universal, so we start targeting the most at-risk children 
before we go out and reach my grandchildren. And that is really 
important. That was a decision we made in the state, and it was 
fully agreed upon by all members of our General Assembly.
    Also, though, we fund every age group at the same time, so 
it is really important that we stop pitting preschoolers versus 
zero to three. A child doesn't wake up one day and say, ``Gee, 
I am a preschooler,'' or, ``Gee, I am in child care.'' They are 
children. So we have to fund all 5 years, and we did that in 
Illinois.
    So the money goes out to a competitive group of for-
profits, non-profits, faith-based agencies, with a set of 
standards they receive the money. What were some of the 
challenges we faced? The politics of funding all 5 years at 
once.
    That is a big issue in our field. Do you do preschool or 
zero to three? Get over it. We have to do it all at the same 
time, and we can do it. You put money out and you just split it 
up based on the 5 years, or just go 50-50.
    Secondly, I know competition is hard, but we have to get 
over that, too. We have to allow competition because the best 
rises to the top. And that was a hard-fought decision that we 
confronted.
    The other thing that we confronted, that we are still 
confronting, and I would like the federal government to pay 
really strong attention to this, is the lack of transparency. 
There is a great opportunity in funding states. The problem is 
you will never find a hearing like this in the state of 
Illinois General Assembly, where there is oversight of how the 
money is being spent.
    So lack of transparency, whether it comes from the Illinois 
State Board of Education or a child care department is always a 
problem. And we are still running into that problem.
    So I think the opportunity----
    Chairman Miller [continuing]. Transparency--I am sorry to 
interrupt the gentleman's time----
    Ms. Meyer [continuing]. Where the dollars are being--how 
the dollars are being spent, how decisions are being made where 
the dollars are being spent, what the data systems are. I mean, 
you get a state--I mean, wonderful state long-term bureaucrats 
who operate their own fiefdoms.
    And we have an Early Learning Council that has tried to 
really bring a comprehensive integrated approach. You can't do 
that unless there is a real partnership between the state 
administration and the public-private sector.
    So I will finish and hand it off to my colleagues here by 
saying what you can do? I think the challenge grants, 
challenging states to figure it out at our level, but driving 
down what the floor for standards would be would offer great 
opportunities for states to realize your vision for a state 
preschool agenda.
    Mr. Kucinich. Go ahead.
    Dr. Robinson. Another big challenge, sir, would be 
facilities. I mean, facilities are a real challenge in almost 
every state, in my state and in almost every state I visit. 
People want more pre-K in Georgia, for example, and we have--
ours go out as pre-K grants, and people apply every year. And 
everyone that applies doesn't get it. It is competitive.
    But we have problems with population growth, and we have 
some facilities in areas we have extra facilities. But in most 
areas, we don't have enough facilities, and good quality 
facilities for zero to five take a lot of money, a lot of 
careful planning, certain equipment, certain outdoor areas, 
certain things indoors. So I do think facilities would probably 
be a challenge for many of the states.
    Mr. Kucinich. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    First, thanks for hosting this very important hearing on a 
topic that truly is about our nation's future, because it is 
about our children, and they are our future.
    Want to thank all of our witnesses for a great wealth of 
knowledge you have shared with us in your written testimony as 
well as your oral testimonies here today.
    I am proud to be a parent of a soon-to-be 10-year-old 
tomorrow. He can't wait to be double-digits, and another son 
who turned 13, and thankfully had the ability to have the 
understanding of this zero to five and knew, as a new parent, 
had that knowledge shared with me, the importance of not 
waiting till Kindergarten or preschool or whatever it may be.
    And I remember a conversation when I was in the State 
House, when my first child was born, he spent about 3 days a 
week with me. Any days that I was not on the floor of the 
House, he would be with me. So he was in Education Committee 
hearings at the state level, ribbon cuttings, you name it.
    But one day, sitting in my Capitol office, he was about 6 
months old, and I was sitting there reading to him. Obviously 
he didn't know the story and wasn't following the story, but a 
staff member walking by saw me reading and popped her head in 
and said, ``Well, Todd, what are you doing? I mean, there is no 
way he knows what you are saying or understands what you are 
telling him.''
    And I said, well, I know he doesn't get the story, but 
those brain neurons are working and developing, and that is 
going to pay dividends down the road. And he is doing 
exceptionally well, and I think that early opportunities we 
were able to give him and a great preschool opportunity that 
you were talking about certainly, we know as a family, pays 
off.
    So we are grateful for your work, and very pleased our new 
president has talked about early education over and over in his 
State of the Union, in his address to the Hispanic Chamber of 
Commerce last week. Early education was a big part.
    And the one issue I want to mention--and I guess I am going 
to lobby you a little bit--is to reach out to colleagues of 
mine in the House and Senate in favor, hopefully, if you share 
my position, on a piece of legislation that my colleague, Danny 
Davis from Illinois and I are the sponsors of, and it is 
Education Begins At Home.
    And Mr. Soifer, you reference early childhood programs 
cannot substitute for the positive influence of good parenting 
on a child's development. And Ms. Stebbins, you state, 
``Helping parents helps young children.'' And I couldn't agree 
more.
    And one of the things we are trying to do is allow parents 
to be good parents and engaged parents. And we have so many 
programs, nurse-family partnerships, parents as teachers, and 
similar programs that really are helping especially low-income 
single moms know what it means to be a good parent and what it 
takes to be a good parent.
    And so my effort here today, more so than a question, is to 
lobby you to reach out to House and Senate members, if you do 
share my support for this legislation, to encourage them to 
support it so that we have parents who want to be good parents, 
who know what it takes to be a good parent.
    I, thankfully, had amazing role models in my mom and dad. 
And how they did it with five of us, I have no idea. We have 
just two, and it is chaotic. But I had that example to follow.
    And to me, if we really are going to be successful, whether 
it is pre-K, whether it is quality child care, whether it is 
quality preschool programs, Head Start, early Head Start, we 
need the family to be engaged in supporting it----
    And so Representative Davis and I put forth the legislation 
not to reinvent the wheel, but to try to make these type 
programs more readily available so we have those parents 
partnering what your states are doing, what your organizations 
are supportive of. And hopefully, we will be able to bring it 
all together and truly understand that the investment we make 
now in those early years, zero to five, the return on 
investment for the child is dramatic, and ultimately for 
society, as you all understand, is dramatic.
    And I think one of the challenges, we have a lot of focus 
on higher ed and the cost of higher ed, and I don't want to 
think about what it will be by the time my children get there. 
But what we know is the return on that investment is not nearly 
what the return on investment is at this stage, zero to five.
    So I really want to just say thank you for your efforts, 
for what you are doing already. And if you want to reach out 
and lobby in favor of Education Begins At Home to the Chairman 
or anyone else, I would encourage you to do so.
    So thank you, Mr. Chairman. Again, thank you for hosting 
this hearing.
    Chairman Miller. Thank you.
    Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman. Of the several hearings 
that I have got to be a part of so far here in Congress, this 
one is particularly important, and I am particularly thrilled 
to be here and listen to you here today.
    My first question is for Ms. Stebbins, and both Mr. Soifer 
and Ms. Stebbins talked about the role of quality parenting, 
and Ms. Stebbins talked about that as one of the stools, needs 
stable, nurturing families. And then, Mr. Soifer mentioned 
quality parenting as well as quality parenting time.
    Some of the specific items within--and that is clearly one 
of the most difficult policy goals, to legislate good 
parenting. One of the things we can do is remove barriers to 
effective parenting.
    One of those barriers that affects many children of same-
sex couples is the Defense of Marriage Act and the inability of 
gay and lesbian couples to get married in this country, 
specifically with regard to some of the items mentioned by Ms. 
Stebbins, such as tax policies, adequate access to benefits 
that allow parents to work, and policies that protect time for 
parents to bond with their babies.
    I was wondering if you could address the potential of 
overturning the Defense of Marriage Act in terms of improving 
the quality of early childhood education and quality parenting.
    Ms. Stebbins. I can tell you that we really struggle to 
find good policies that we could see would promote good 
parenting, and so you will see that in the profiles.
    I can also tell you that I don't know of any research base 
that would talk about that, but I think good parenting is good 
parenting. And so it wouldn't be a stretch to talk about what 
does it take to get stable, nurturing parents in the home. I 
don't think it depends on the sex of those.
    I will also talk about, being a parent myself of a 4-year-
old and an 8-year-old, that having two parents really makes a 
difference, that this is hard work. And having that support for 
the parents is equally important.
    Mr. Polis. Yes. It seems as though, as I said, the ability 
to legislate good parenting is limited. One of the things that 
we can do is some of the things that Mr. Soifer and Ms. 
Stebbins addressed in terms of removing barriers to good 
parenting.
    Certainly the tax policies, access to benefits, those are 
specific ones you cite that I would just remind my colleagues 
are, in fact, barriers that are particularly related to the 
rights associated with marriage that, currently, many same-sex 
families are not able to enjoy.
    My second question is for Ms. Rasmussen or Ms. Stebbins to 
comment on, and it is really with regard to families that are 
struggling to make ends meet, and quality and affordable child 
care is frequently out of reach. And there is a trade-off 
between quality and hours that many people, unfortunately, have 
to face. The price of full-time care and quality care has 
increased, and child care expenses are typically a very high 
percentage of low income working parents' income.
    My question is, what ideas do you have for what Congress 
can do to help states increase child care capacity, including 
incentives for quality, to help families who face this very 
difficult choice of trade-off between quality and hours to be 
able to have both?
    Ms. Rasmussen. What I would go back to is what I was saying 
about partnerships and making it easier for multiple funding 
streams to come together in order to be able to combine 
resources to offer a high quality program for the full hours 
that you are talking about that parents often need.
    So if we can not only expand Early Head Start but also make 
it easier for Early Head Start, private child care providers 
and public schools to combine their resources along with a 
child care subsidy, then it is possible to offer--and we have 
some great examples of that--of offering a full-day, year-round 
program that is of high quality and can be available to 
families with limited resources.
    Ms. Stebbins. I guess I would just add that we can piece 
the pieces together to make it available, but most children 
still aren't getting it. In most states, the eligibility levels 
for child care subsidies are low. Even when they are eligible, 
they are put on waiting lists. When they get the subsidy, they 
might not be able to access the high quality care that they 
need. So it is about money, and more money in the system.
    Mr. Polis. One more area that if any of you would like to 
address is the potential for federal policies to better connect 
businesses, and particularly small businesses that have not 
conventionally been involved with offering on-site or quality 
assistance with child care service providers, either on-site or 
through assistance programs.
    What federal policies could better encourage those 
partnerships? Or conversely, are there any federal policies 
that inhibit those types of partnerships today?
    Ms. Stebbins. I don't know of any that inhibit it. I do 
know that in most cases, where you have business involved, it 
is a large corporation, and so they can leverage the large 
workforce and their bottom line isn't affected by the 
attendance rates of their parents and their focus on their 
work. The problem with small businesses is that they don't have 
enough employees to actually justify opening an on-site child 
care center.
    But something where you would have pooled services or 
shared services bringing them together would certainly be an 
incentive that is worth looking into. Again, I don't think that 
there are barriers to it, but there might be some good 
incentive to bring small businesses together to think about 
shared services around child care.
    Mr. Polis. What type of scale would an employer need to 
have to be able to offer----
    Chairman Miller. He is going to take his answer off the 
air, as they say.
    Mr. Polis. Thank you.
    Chairman Miller. Mr. Cassidy?
    Mr. Cassidy [continuing]. I am synthesizing what I have 
heard from others. I think Chairman Miller pointed out that 
there is probably a poor correlation--if not, I won't put the 
words in his mouth--between those who most need the service and 
where the Head Start or whatever, child care is placed.
    So my first question is, that almost seems like an 
accountability measure for government, that if we are going to 
give a block grant or we are going to allow this pooling, that 
there should be a metric saying, ``Okay, government entity, can 
you show that the people who most need it are most 
benefiting?'' Do you follow? And if so, is that being done, or 
if not, how do we achieve that?
    Ms. Meyer. I will just jump in on our experience. When I 
was talking about transparency, I mean, most states have--there 
is a lot of mobility, clearly, with populations moving around. 
But there is a sense of where the most at-risk and high need 
families are. And if you can't track that with data systems and 
sort of match up where the programs are being placed to meet 
that need, then, in fact, you have a problem.
    And I was saying earlier, I think, before you came in that 
we do in our state, the state of Illinois, we do have a 
transparency problem sort of directing the money to those 
community areas.
    Mr. Cassidy. So would that be a reasonable thing of 
legislation from Congress to say, if you accept these federal 
dollars, we are looking for a metric that you are actually 
locating these programs where your census track data says the 
need is greatest.
    Ms. Meyer. I think, in fact, the way I am reading the K 
through 12 sort of four silo areas that I hope will move down 
to zero to five, that a data system will be required in the 
first chunk of funding. Yes, I think data systems can 
accomplish that.
    Mr. Cassidy. Secondly, I have been reading the testimony, 
and I am struck that there are two kind of discordant things. 
Ma'am, I don't have my contacts on. I apologize. I think you 
are Dr. Robinson. If not, I apologize.
    But you mentioned that you have strong accountability 
standards in Georgia, and Mr. Soifer, I read in your testimony 
you speak about how multiplicity of approaches is allowed in 
Washington, DC. I am a little bit not straight how you can have 
accountability when there is a multiplicity of approaches.
    Ms. Robinson. Well, what we have in Georgia, for example, 
in the pre-K program, and then I can talk about the child 
care--but in our pre-K program, they all register, and they are 
all part of the pre-K program. They submit rosters six times a 
year, and on those rosters you learn about the demographics. 
You learn about how the funding is being spent.
    We have on-site pre-K consultants that visit these centers 
across the state, so we have on-site monitoring. They have a 
PQA, a Performance Quality Assessment. So we have all kinds of 
measures built in so we know what children they are serving, 
what the success rate is of these children.
    Mr. Cassidy. And the success is defined as vocabulary, as 
reading skills.
    Ms. Robinson. Literacy, numeration, all of those, even some 
social and emotional in the PQA, and even the environment is 
assessed.
    Mr. Cassidy. And this is a series of standardized tests?
    Ms. Robinson. Well, I wouldn't really call them 
standardized tests. It is notebooks that are done that the 
teachers report and the consultants work with them on that. And 
we are now going to an online work with the Pearson Work 
Sampling, which is going to roll in over the next couple years, 
so we will have all this data online so that it can roll in 
from pre-K right through P16. And we have a longitudinal data 
tracking system----
    Mr. Cassidy. Now, presumably, though, your teacher is the 
one entering the data. My 7-year-old could not, for example----
    Ms. Robinson. No. The teacher is entering the data. You are 
correct.
    Mr. Cassidy. So there are at least the potential of gaming 
the system.
    Ms. Robinson. Well, except that they are entering--they are 
doing a whole notebook, and the pre-K consultant is looking at 
that notebook. And in order for them to get funded again for 
the next year, or not to go on probation, or not to lose their 
funding, there are a whole series of criteria that they must 
meet.
    Mr. Cassidy. Would this induce the--or incentivize the 
people to discriminate against slow learners?
    Ms. Robinson. No. It does not at all.
    Mr. Cassidy. Okay.
    Ms. Robinson. Not at all, because if a child makes a 
movement from here to here, they are learning, and they have 
made a movement. And they don't all start at the same spot, but 
if they are moving forward in their learning, that is reported.
    Mr. Cassidy. Well, but any progress is not necessarily 
adequate progress, correct?
    Ms. Robinson. No, but there are certain--they try to have 
them match certain benchmarks.
    Mr. Cassidy. Okay.
    Mr. Soifer?
    Mr. Soifer. What Dr. Robinson is describing is a system of 
an effective authorizer, effective licenser provisions, all of 
which are critical to the process working well.
    I wondered if I might to mention, in regards to your first 
question, one area where--when Congress reauthorized Head 
Start, there was language that we hope that those providers 
that are consistently perhaps not doing as effective job as 
others could be would be successfully recompeted. And I think 
as we watch that Head Start reauthorization be implemented, I 
think that is something important to keep an eye on as far as 
making sure that those providers are reaching those kids 
effectively and what we can do about it.
    Mr. Cassidy. I have to admit, in my own public school 
system back home, my kids go to public school--I am sorry. 
Thank you--talk about public school, he hits the gavel.
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you. Thank you for the wonderful 
hearing, Mr. Chairman.
    We no longer live in a Leave It To Beaver time when the 
1950s where, if a mom was poor, she actually got some subsidy 
and some help, a safety net through the welfare system. And if 
a family was middle class, mom stayed home. So kids had their 
moms around, even if their dad was at work or if they were in 
single parent homes.
    Now, if a child is lucky enough to have a two-parent 
family, they are both in the workforce. And certainly if there 
is a one-parent family, except in really extreme circumstances, 
that parent is working, also.
    So who is at risk here? Our kids. Not just poor kids, all 
kids, because they are so at risk of being left behind because 
their parents have to put food on the table and have to choose 
between putting that food on the table and actually sitting 
down at the table and eating with their children.
    So I have legislation called the Balancing Act that is an 
omnibus bill. Dennis Kucinich's preschool legislation is in it. 
Rosa DeLauro's 7 day paid sick leave, and it covers paid family 
medical leave. It is huge. It is absolutely necessary to make 
it possible for parents to go to work and not have to choose 
between their children and their jobs. We have to stop putting 
them in that place.
    A very important part of the Balancing Act is child care. 
The Balancing Act includes universal voluntary preschool and 
expanding and improving on child care itself, before and after 
child care, daycare, evening care, so that kids know that they 
are--and that parents know that their children are safe, 
secure, nurtured and in a learning environment.
    So I just had to say all that. Standards have to be part of 
it. Now, the feds, if they are going to give money to a 
program, have every right to set a floor for a standard. The 
states have every right, as far as I am concerned, to improve 
upon that. If you want a better program, state by state by 
state, set your standards higher. But there has to be a 
minimum.
    We just learned not too long ago in a study that came out 
on just child care centers and safety that licenses for child 
care centers does not mean that center has been inspected in 
years. And the accidents that are happening--and because of 
this, and the lack of safety in 2009 is just atrocious. So I 
have a bill to strengthen the standards for--and the safety 
standards for child care centers also.
    What I would like to know from you is do you, as a group or 
individually, believe that we can and ought to have every 
child--and I don't mean just my grandchildren. They could be 
put in a box forevermore now after they are----
    Well, they won't go in boxes. They wouldn't stay in the 
box. But they are going to be fine. But I worry about their 
parents, because they work so hard to--and then they 
concentrate on these kids every minute when they are home. I 
kind of worry about that, too. I didn't give--all my four kids 
didn't get that much attention.
    But can we-will we put together a plan that will give every 
kid universal preschool in the very near future? Are we 
willing? Do you--in your experiences, are we going to be 
willing--I have 1 minute for you to answer yes. Okay. Are we 
willing to take this forward?
    Ms. Rasmussen. For the sake of the children and their 
families, yes.
    Ms. Meyer. Dr. Jim Heckman from the Department of Economics 
at the University of Chicago, not exactly a hotbed of 
liberalism, says that there is only one--I would float that to 
you all--it is about the public will, but your leadership. 
There is only one real policy decision, and that is how to 
spend scarce resources in difficult times.
    I think a system that looks like every other industrialized 
country in Europe--I won't say France because I would get in 
trouble--would be wonderful for this country. But if we don't 
have the resources--there is a 50 percent dropout rate in the 
city of Chicago. It is not my kids who are dropping out. It is 
the kids at greatest risk, and we know how to keep them in.
    And so I think we should go for it, but I think, given the 
resource problem in the country today, it is got to be 
progressive. That would be my suggestion. That is how we are 
doing it in Illinois, progressively.
    Ms. Woolsey. Progressive.
    Mr. Soifer. And I would agree with Harriet, that it needs 
to be progressive, that the idea of starting with the at-risk 
kids. I totally agree with the universal system down the road, 
over time being able to build it in, but certainly starting 
with the kids that are most at risk, because those are the ones 
that we are going to have the most amount of difficulty with 
down the road.
    Chairman Miller. That is all the agreement you get in 1 
minute.
    Mr. Castle?
    Mr. Castle. Thank you very much, Mr. Chairman. This is an 
interesting hearing.
    Many years ago, almost in another lifetime, I was--and 
one--on the program focus on the first 60 months, which was--
now about that time, and it has continued in various iterations 
since that since that time in Delaware.
    And that is going to end up being my question. But in my 
judgment, it is--in terms of helping kids. But I am not 100 
percent sure that--or whatever to determine--working or not 
working. And maybe you can't either. I mean, maybe in the 
agencies that you run or programs you have seen, you can make 
your own judgment.
    But my question--can anyone enlighten us as to whether or 
not actual--or different outside--or anyone else who is looked 
at these programs to determine what is really working or not 
working, which is one part of my question.
    And another part of my question is, do those--or whatever 
they may be, show the groups that--help? I mean, it is apparent 
that lower income and perhaps single parent households and a 
variety of things may need help. But is there some--
determination that you feel is helpful in learning that? You 
might have different answers to this. But I am just curious as 
to--any of you can tell me where you look for your guidance as 
to what is really working or not working in terms of early 
childhood education. It is an open-ended question.
    Ms. Meyer. Well, I will start, because everybody will want 
to pitch in on this one.
    Certainly, Heckman's work is very, very good. Dr. Jack 
Shonkoff at Harvard and his child development--all the center 
there with the developing child gives you a tremendous amount 
of research from numerous scholars that contribute to that body 
of work. And there are a number of states that had very 
successful programs. If you are looking at particularly a pre-K 
program, Georgia has a very strong Georgia pre-K program. 
Oklahoma has a very strong pre-K program.
    And there are different types of rankings that come out 
around the country, although there is some controversy that 
they are not comparing apples to apples and oranges to oranges 
in those different studies. But certainly Heckman's work, 
certainly Dr. Jack Shonkoff. Gormley from Georgetown has done 
some wonderful work looking at pre-K and at early learning. And 
then somebody else can--I mean, I will just--I don't want to 
list all----
    Ms. Robinson. Well, I think we are all going to say the 
same thing. You hit my first three. I often look at child 
trends, because they are nonpartisan, and I think they look in 
a very measured and deliberate way at the research.
    I think--and of course, NICHD, the National Institute of 
Child Health and Development. I think the most important thing 
I would leave you with is researchers, I love them to death, 
you know, but their currency is beating up on each other about 
what piece of research that didn't get my left ear but it got 
my right ear, is to always answer this question, ``What works 
for whom in which circumstances?'' And that really matters a 
lot.
    The NICHD longitudinal child care study doesn't have the 
children of teen moms. So they are part of the at-risk 
community we are thinking of. So just make sure you ask that 
question of whatever research you are looking at, whether it is 
David Olds, early Head Start, the size of the impact, what is 
modest, what is not. They have always got an answer for that.
    Ms. Rasmussen. I would just say I would--when you mentioned 
Dr. Jack Shonkoff, if you really want to read up on this, the 
sort of bible of all this is Neurons to Neighborhoods by--with 
Jack as the key author of that with a team of experts from all 
across the country.
    But I think it is also important to recognize--and yes, 
there are many studies that do show--and both Dr. Robinson and 
Harriet referenced these--but there is still a lot we need to 
learn. We have not figured it all out. We don't know precisely 
the answer to the question that Harriet just asked in terms of 
exactly what does each child need and what kind of program is 
going to best serve them, or what kind of an approach would--
this family is going to work with.
    I am working on an innovative research project in Kansas, 
working with teen moms, and they have decided one of the best 
ways to communicate with teen moms is texting. So they are 
texting on a regular basis, reminding them to go to the clinic 
for their well-baby checkup, reminding them that they should be 
reading to their children today. Have they followed through on 
the request from their child care center? And it seems to be 
working.
    But my point here is really not to now advocate for texting 
as a primary strategy, but the fact that we do have to invest 
in continuously asking ourselves, is this working, and how are 
we going to know when it is working, and how are we going to 
hold ourselves accountable for constantly pushing to learn more 
about what is effective.
    Ms. Stebbins. It is clearly a dynamic process, because the 
demographics are changing. The types of children you are 
serving are changing. They have changed dramatically in my area 
in the past 5 years. So I think we need to keep all of those 
things, and I would absolutely agree with that----
    Chairman Miller. The rest of you are going to have to text 
your message in here.
    Mr. Castle. Thank you.
    Chairman Miller. Mr. Castle is ready to receive it, I can 
tell.
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman, and I thank the 
panelists.
    Quality early education has been one of the issues that I 
have really focused on here. And I agree with you, Ms. 
Stebbins, that the research is in, and we really need to be 
focusing on, from a policy standpoint, what the federal 
government can do, also recognizing that this is dynamic. It is 
not a situation where one size fits all, because we are really 
dealing with individual children and their families.
    The last session of Congress, we marked up in this 
committee and passed out of this committee the Pre-K Act of 
2007. And I am wondering if you all are familiar with that. It 
is a grant program that provides flexibility, and it is to 
support, not supplant, what states are doing, because what I am 
hearing from all of you is that all the states have different 
priorities, which is how it should be, in my opinion, and I see 
some of you nodding your heads.
    Now, I have introduced that bill, by the way, in this 
session, and I am wondering whether you think that this is a 
good way for the federal government to support what states are 
doing toward quality early education. You are nodding your 
head, Ms. Meyer.
    Ms. Meyer. Yes, especially with funding. It is birth to 
five, correct?
    Ms. Hirono. Yes. Well, pretty much.
    Ms. Meyer. Then yes.
    Ms. Hirono. Yes. I mean--there is a lot of flexibility for 
the states.
    Ms. Meyer. Yes, that is what I was just going to say. Did 
they give a lot of flexibility to the states?
    Ms. Hirono. Yes. That is the whole point of the grant 
program.
    Ms. Stebbins, are you familiar with the bill?
    Ms. Stebbins. I am not intimately familiar with it, but I 
agree that a bill that focuses on children birth to five, that 
increases resources with flexibility at the state level, it is 
exactly what we need.
    Ms. Hirono. Thank you.
    And Dr. Robinson, something you said caught my attention. 
You said that facilities is a huge issue because there aren't 
enough of these--whether they are standalone facilities or not.
    And I am wondering whether Georgia has--can the state issue 
bonds to--preschools? And if so, has it done so?
    Ms. Robinson. What we have is the individual school systems 
can do a splast, which is a one-cent tax. And then they decide, 
in their local school system, in their local school district, 
what they are going to use their splast dollars for. And if 
they have a pre-K class or they want to expand pre-K 
facilities, they can use that.
    But because we are a program that more of our providers are 
private providers than the public school systems, it is about a 
55-45 balance, or a 60-40, depending on the year, and it 
changes each school year, that percentage. The private 
providers, we have areas where there are not enough providers, 
public or private, and people cannot afford to build the 
facility. So it is an ongoing issue.
    And we particularly have large areas in the state of 
Georgia where the population has just exploded. I mean, the 
school systems have exploded. We have one of our largest school 
systems that had to move all of the pre-K out of their public 
school system and push all the private providers because they 
needed those classrooms for first, second and third grade.
    Ms. Hirono. I understand. That is a problem. We faced a 
similar situation in Hawaii, which is the only statewide school 
system in the country. The statewide school system does not 
incorporate early education or preschool as part of its mission 
because they simply don't have the resources.
    And one of the ways that we addressed this was through a 
public-private partnership where we went to the state 
legislature for bonds to create these standalone preschools on 
elementary school campuses--would come in and actually run the 
programs, because the--provided--based programs,--had the--
schools themselves.
    So I toss that out as something that might--in some of your 
other states. Anybody want to respond to that thought?
    Ms. Meyer. Well, we have been fighting for a capital bill 
in the state of Illinois for years now, and it has moved up on 
the agenda. And depending on the state of our deficit and the 
budget announcement will be made tomorrow, I think we are 
expecting a very big capital investment.
    The important piece is that we all fight at the state level 
to ensure that our local state Boards of Education understand 
that early childhood needs to get a piece of that. So we have 
been fighting for set-asides, because it is hard to get the ear 
of our local state superintendents.
    Ms. Hirono. I can't read. Even with my glasses, I can't 
read. It is Mr. Redmon? Okay.
    You mentioned that what we need to do at the federal level 
is to promote a collaborative approach. Can you--, or do you 
have any thoughts on how we can make sure that--for example, I 
have re-introduced a Pre-K Act, and presumably, that should 
promote collaboration. Do you have any specific thoughts about 
how the federal government could promote collaborative efforts?
    Mr. Redmon. Sure. I certainly think that the kind of 
programs like Head Start, Early Head Start, that are in Health 
and Human Service and the Department of Education and how those 
funding streams and how those pieces fit together are certainly 
a big part of how people can collaborate on the federal level 
and make decisions about what is the best way to spend funding 
for early childhood.
    I think making sure that health is involved, have a whole 
group that is involved in early childhood, because I think that 
is what we have tried to do in Kansas, is to say Department of 
Health, Department of Education, Department of Health and Human 
Services all get together and be able to work on early 
childhood issues. And to see that reflected on the federal 
side, as well, is what I think I am trying to get toward.
    Ms. Hirono. So any kind of legislation that we would be 
pushing through, such as even a grant program, that there 
should be a reference or a requirement that the various players 
are collaborating----
    Mr. Redmon. I would agree.
    Ms. Hirono [continuing]. In order to get the grant.
    Mr. Redmon. I would agree.
    Ms. Hirono. Thank you.
    Chairman Miller. I would be glad to have your statements 
for the record, but I want to try to get people in before we go 
into session.
    Ms. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    And I would like to welcome Ms. Meyers for being here. It 
is great to see you. The Ounce Of Prevention in Illinois has 
just been such a force in Chicago for advocating for zero 
through preschool in Illinois. And I know that it has been 
tough recently with the budget constraints that we have had, 
and I do hope that that changes. And Irving Harris did so much 
to really get down to the level of the birth and how important 
that was.
    Having probably one of the few people that has ever worked 
in a Head Start program, I volunteered the first year that it 
was in existence at Hull House, and so I have been hooked ever 
since on Head Start and Early Start. And now, seeing and going 
and visiting the schools in my district to see how they are 
working it, it is so impressive to see what is happened and how 
it has grown and grown.
    Going back, though to the early childhood, I have also gone 
out to physicians--this is a program that was started a few 
years ago--to read to babies that are brought in for their--
bringing in babies for their first physician checkup, and then 
they are given the books to take home, and then they come back 
for various--when they come back for their checkups. And this 
is low income.
    And to see the interest I think that the kids and the 
mothers--or fathers, whoever comes in with them, and I 
wondered. One of the things that was told to me, and I don't 
know. I am actually supposed to do that again this year, so--
but whether they would then track the kids, and when they went 
to Kindergarten, they would see how ready they were for 
Kindergarten, or for preschool. And I wonder if any of you have 
any data on that, and is this program working.
    It might be a little bit early. I think this was about 5 
years ago, but----
    Ms. Meyer. It is Barry Zuckerman's Reach Out And Read 
program. And it is a great program because it is so easy. It is 
such a no-brainer. And I believe he does have data, and I will 
be sure and get that to you.
    I think there is something that is really important to 
remember about the early years, and one of the Congressmen was 
talking about. It is not just literacy and language 
acquisition, and we are not teaching our kids. Kids end up 
loving reading because they want to be like their parents. And 
they see that their parents love to read, so then they walk 
around the child care center bidding for the teacher to have 
them read a book, too.
    And that is the beauty of that program. It is easy. It is a 
no-brainer. It is inexpensive. And my understanding is it is 
really going to scale. I mean, it is happening all over the 
country. So I think it is a great example of what can be done 
in one area of our community that Helene was talking about with 
the health community.
    Mrs. Biggert. I have to give one small story.
    I was doing a PSA on early reading, and I had my 10-month-
old granddaughter on my lap, and talking about reading. And 
when I said, ``And read,'' she grabbed the book like this, and 
was looking down at it. It was perfect. You couldn't have 
gotten somebody to do that if you wanted to.
    But all these programs seem to be so important, and yet we 
are still having the kids that are entering, and they are in 
the Kindergarten not ready for school. What more can we do, 
then, to encourage that? And I understand that--I am worried 
about this reading program, that I think there was some talk of 
canceling it. Had anybody heard that? Well, I will check the 
budget again, but I thought that that might be in there.
    What else can we do? If you were sitting up here, what 
would you want to do, to help you?
    Ms. Stebbins. I think many of us have talked about the need 
for coordination and how there are multiple programs coming at 
the state level. I want to remind you that the Head Start 
Reauthorization Act created early learning councils that have 
to be created in every state. Illinois' is a model of that. 
But--and funding in the Recovery Act will fund those councils, 
but they require a 70 percent match of state funds in order to 
drive down the federal funds.
    So one of the things that we are looking at right now is 
what is going to count as that match and how we can ease the 
state burdens so that the federal dollars can flow to create 
the oversight body that we all think is so important.
    Ms. Meyer. I think, too, it is really important that the 
early learning councils are not perceived as a Head Start early 
learning council. They are to be inter-agency and 
comprehensive, so that is one thing. Certainly we need 
resources.
    I think we have to look honestly at our really good 
programs and figure out what is the rigor necessary to improve 
their quality so people don't think that we are going to de-
fund Head Start or early Head Start, but we have learned a lot. 
You were saying that before. How do we upgrade them?
    And the last thing I will leave you with is the notion of 
competition in early Head Start. There are communities that 
serve 14 kids, or 30 kids, and you can't go in and compete in 
those communities because grantees own those communities. It is 
a really backward notion of trying to reach the most at-risk 
children, so I would really look at the way early Head Start 
designation is done and look at it very, very quickly.
    Mrs. Biggert. Thank you. I yield back.
    Chairman Miller. Thank you.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    We have just heard that we need to do a little more 
research on what works and what doesn't work. But is there any 
question, as a general policy, that investments in quality 
early childhood education for children at risk of failure will 
reduce crime, reduce welfare, and reduce the need for remedial 
education? Is there any question about that?
    Ms. Meyer. The Chicago Longitudinal Study is the study that 
has tracked that.
    Mr. Scott. Although you don't have all the answers, there 
is no question about that. Is there any question that the 
investments probably save more money than they cost? I mean, 
the research is pretty clear on both of those. I say that 
because my other committee is the Judiciary Committee, where I 
chair the subcommittee on Crime. And we are spending money on 
incarceration. The Pew Research Foundation just had a study a 
couple of days ago that says that incarceration rates over 300 
start getting to the point of diminishing returns.
    Over 500 per 100,000, it is actually counter-productive. 
The United States is one of only two countries known on earth 
to be over 500 already. It is 700 per 100,000. Some states, the 
minority incarceration rate is around 4,000 per 100,000.
    Now, if you look at what we are spending just on the 
counterproductive part of that incarceration and divide it out, 
you are talking about $3,500 per child per year. And if you 
target it to half or a third of those most at risk, you are up 
to seven to $10,000 per child per year that we are spending on 
something that has proven to be counter-productive.
    So we don't need to wait for the pristine studies that show 
everything. We have got enough on the table that show that 
these investments work. They save more money than they cost, 
and it is what we are to be doing.
    Ms. Meyer, you mentioned brain growth. Can you talk about 
the importance of quality childhood education zero to three in 
the context of brain growth?
    Ms. Meyer. Sure, because Jack Shonkoff's not here to call 
me a fraud.
    Look, what we know is that there is this rapid explosion of 
neuronal development, and the architecture gets set during 
those early years. So it doesn't mean that trying to intervene 
later is impossible. It just means it is more difficult. It is 
easier during those early years.
    So how do you do it? You do it through relationships. 
Children learn what the world is about and how the world will 
relate to them via their relationships with caring adults. That 
is why close and important responsive parenting is necessary. 
Parents, we need to remove as much stress as possible. But that 
is why childhood ratios and group sizes matter more during the 
early--first 3 years of life, frankly, than they do in 
preschool, because children have to have personal relationships 
with their caregivers.
    Mr. Scott. But because of brain development, if you miss 
that opportunity, you are playing catch up----
    Ms. Meyer. You are.
    Mr. Scott [continuing]. When you could have had much more 
cost-effective intervention at that point.
    Why do nurse home visits--why are they so successful? Does 
anybody----
    Ms. Meyer. Sure. I think they are really successful 
because--for two reasons. Number one, David Olds has really 
good research, and he had the money for longitudinal study. So 
I would urge you all not to be afraid to fund research. We 
could use that kind of data.
    I think that nurses--there is a screening. You want a 
caring individual. And if you decide to enter the nursing 
profession, you have already sort of been deemed a person who 
is a caring individual and better able to sort of work with 
families and provide the kind of relationship-building that 
they need.
    But also, I think there is a certain amount of authority 
that goes along with a member of the medical profession. It is 
one of the reasons Reach Out And Read works so well. When a 
doctor says to do something, you tend to do it.
    I think there is a great opportunity for nurses entering 
high-risk homes to really get in around the time of birth and 
speak with authority. I do not, however, believe that nurse-
family partnership is the only way to reach poor families. In 
fact, David Olds has made it pretty clear that it only works 
with the firstborn child of a teen mom, which means there are a 
lot of other children out there who it won't work for.
    Mr. Scott. But those studies have shown significant--long-
term significant reduction in crime?
    Ms. Meyer. Yes.
    Mr. Scott. Save more money than they cost?
    Ms. Meyer. Yes.
    Mr. Scott. And one of the reasons is you are reducing child 
abuse, which is highly correlated with future crime.
    But, I mean, when you have things that save more money than 
they cost, it seems ridiculous that we would actually spend the 
kind of money we are spending on programs that have been 
studied and shown to be counter-productive.
    So I thank you for your testimony.
    Chairman Miller. Thank you.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman, and I want to thank 
the panel. All of you are--and have very interesting responses.
    I couldn't help but pay close attention to my colleague, my 
friend, Congressman Castle, asking what groups need the early 
childhood development programs, and some of the responses with 
researchers and so forth. Also, another one of my colleagues 
asked what works for what children.
    I think that research is very valuable, but so is the 
information that I have heard just from parents, parents who 
have children from what you call at-risk, from Hispanic and 
African American families, and how is it that they have some 
success models. And what I hear from them is that early reading 
plus writing equals success in school.
    Well, I had a field hearing out in California, and I met 
with the chancellor of the University of California system. And 
they introduced me to a program called PIQE, P-I-Q-E, Parents 
Involved in Quality Education. Very successful, and the idea is 
to get parents to read to children when they are 1 year old, 2 
year old, 3, 4, all the way through the 6th grade.
    And their--the group that leads that program of parental 
involvement tell me that it is so successful that children 
listening to the mother or the father, or possibly siblings, 
reading to them every single night for 30 minutes or longer has 
been the difference in the successful children being able to 
develop a good vocabulary, and in many cases bilingual.
    So I say that this is something that is extremely important 
to all the children we are trying to prepare to be school ready 
in the first few years, and then, by the time they get into 
Kindergarten, first grade, that they are reading at the grade 
level necessary, and that they continue so that they indeed 
will go on to high school and graduate.
    So I am going to focus on my questions in an area that I 
represent, which is 80 percent Hispanic. And my question would 
be to Ms. Harriet Meyer. How is Illinois ensuring that its 
early childhood programs are meeting the needs of English 
language learners and their families?
    Ms. Meyer. Well, with our Preschool For All initiative, we 
have a large, growing Latino population. So, in two respects--I 
am going to go back to Representative Hirono's question about 
the capital investment.
    There is agreement that all the capital money, if early 
childhood gets it, will go into the Latino community, which is 
the fastest growing community. So we hope to be able to build 
centers there first. There is a big, big emphasis on training 
bilingual educators.
    Research is very clear that, in the earliest years of life, 
family language trumps what happens in a child care center, but 
by the age of three or four, you really need bilingual 
educators. So, in fact, we have a subcommittee of our early 
learning council called Special Populations, and they have just 
made a very detailed recommendation to the Illinois state Board 
of Ed, which rejected most of the recommendations--thank you 
very much--to ensure that, within the next 3 years, there would 
be--that all dollars that are RFP'd out would require that 
there be bilingual educators in the classroom. So that is one 
way we have been going about it.
    The zero to three programs that go out are research-based, 
are set on Early Head Start standards, then they allow a 
community to reach out to a program just like the one that you 
have mentioned to incorporate it into their program and into 
home visits. So that is basically the way we are looking at it.
    Mr. Hinojosa. So what I hear then confirms my thinking, 
that the early reading plus writing and parental involvement 
combined so that we teach--in PIQE, they teach parents how to 
read to children. Remember that many of the parents are drop-
outs because one of you said half of the students are dropping 
out, so that means that a lot of single mothers who are--
mothers are drop-outs that wouldn't know how to read to their 
children. So that training then is very important.
    My next question is to Jessie Rasmussen. What are some of 
the quality issues or indicators for early childhood programs 
that serve the English language learners and their families?
    Ms. Rasmussen. What are the quality indicators that are 
serving those families?
    Mr. Hinojosa. What are the quality issues, or possibly the 
indicators?
    Ms. Rasmussen. Well, part of it is what Harriet just said 
in terms of having staff that are bilingual. One of the things 
we have haven't talked much about today is professional 
development. As we talk more and more about the importance of 
the early learning in the first 5 years and understanding child 
development, we need to get more and more people who are 
trained in that body of knowledge.
    One of the things we did in Nebraska was actually target 
our Latino community for the TEACH scholarship program, which 
is promoting folks that are working in early childhood 
programs, getting their post-secondary education or their 
associate degree or their bachelor's degree. And then, we 
actually arrange for the classes to be delivered in Spanish, 
making it easier for the folks to get those credits.
    So I think that one is the staff that is a quality 
indicator. I think the other is--it goes beyond the language, 
and that is the cultural reflection that is there in the 
program in the physical environment, as well as a sensitivity 
to the families that are having their children in that program.
    So I think it is both. You should see in the program a 
reflection of the cultures of the children that it is serving 
as well as the languages.
    Mr. Hinojosa. Thank you.
    I wish I had more time, Mr. Chairman. Thank you.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. I apologize for not being here. I was at 
another meeting, and I have no questions, but I may submit some 
in writing.
    Chairman Miller. Thank you.
    Thank you very much for all of your testimony and your help 
here.
    Mr. Redmon, I mentioned in my question that I would get 
back to you. You had raised the issue of--you thought it was 
difficult to coordinate funding at local and state levels, but 
you seemed to indicate that you are making progress on that. 
But you find it a challenge to also figure out how then to 
coordinate that with federal funding. Is that a fair----
    Mr. Redmon. Absolutely.
    Chairman Miller. You want to elaborate on that?
    Mr. Redmon. I think when funding comes down from the 
federal level, that--Head Start funding, for instance, goes 
right over the state, which is fine. But I think that the idea 
that having Head Start programs be able to collaborate with 
their local partners is something that sometimes can be 
challenging in some communities. Not all communities, but in 
some communities, so it is not really a requirement that is in 
there.
    I think that our Child Care and Development Block Grant 
fund to come down. States spend them in a lot of different 
ways, and how those end up flowing through to--from the state 
to local communities, and the rules that are put in on a 
federal level and how that connects back up to what we are 
trying to do in the state sometimes can be challenging.
    So I think that we made progress in terms of making those 
pieces fit together. I think the other part is----
    Chairman Miller. So you are saying you are doing better 
with the community development block grant, you think, in that 
kind of coordination?
    Mr. Redmon. Yes. I mean, I think we are making progress in 
terms of how that is working.
    I think the others--and I think other people mentioned it, 
data collection, different programs require different data to 
go to different federal agencies. And I think to have a more 
unified data system from the federal level would help states be 
able to figure out how to unify their data systems in a better 
way. I think right now we have a lot of disparate ways in which 
we talk about data, but it would be nice to see it combined in 
some way that--or put together in some way. That makes it 
easier for states to be able to deal with all the different 
federal funding requirements.
    Chairman Miller. One of you mentioned the federal effort on 
data. Obviously, we have been having this battle for some time, 
trying to get states, including my own, to develop these data 
systems. I think we are in about the last lap here, because I 
think with the new Secretary and the President and some 
resources the Secretary can provide, hopefully we will have all 
of the states, if they want to continue to access federal 
money, will have the data systems online with the 10 critical 
parts of that.
    But that does not speak to early childhood education. But 
it would seem to me that if they do, in fact, have that at the 
states within the next year or so, that that would start to 
give a place where we could consider plugging in this kind of 
data, because you now know the continuum of the systems, so 
what is helpful to them and what is helpful to you.
    So I think that is going to be a continued push here. We 
just cannot continue to do as we do with the haphazard fashion 
we do with our children in this country. That data can be 
obviously immensely helpful to teachers and providers and to 
parents and to everyone involved in that system.
    Mr. Redmon. I agree that it is not only just you out 
collecting the data, but how do you use the data once you get 
it. I think that that is going to be, from the state and local 
side of it, it is one of the challenges that we have, through 
even our Children's Cabinet, is taking the data, looking at it, 
parsing it down and being able to have an understanding of it 
so that we can help programs either improve or move them on to 
other strategies that may be more effective.
    And so I think it is how----
    Chairman Miller. It is a bit--as the Secretary says, it is 
a bit of a culture change, because most education entities 
prefer to have data that they couldn't use. They would prefer 
to be out of date, that it be old, that it not be timely, and 
they just move along and continue doing what they were doing. 
Good data is a challenge to organizations of any kind, in the 
private sector or public sector. Good data challenges your 
thinking, very often. What you thought was true doesn't 
necessarily turn out to be so.
    Excuse me, Dr. Robinson?
    Dr. Robinson. I was just going to make one plea. And as you 
all look at how----
    Chairman Miller. You have made more than one plea here 
today.
    Dr. Robinson. I know.
    Chairman Miller. Okay, but this is your big plea.
    Dr. Robinson. No. Well, this ties back to my original----
    Chairman Miller. Yes. Oh, I see. This is a subset of your 
previous plea.
    Dr. Robinson. It is a reminder of the plea that--and for 
those states that have agencies, if we could please, as you 
work on these federal dollars, be sure that the dollars flow to 
the zero to five agency. Thank you.
    Chairman Miller. We don't want to have to pay a commission, 
though, for you to pass it on.
    Ms. Robinson. No, sir. No sir.
    Chairman Miller. Okay. All right.
    Thank you very much. You know, there was a method to our 
madness in inviting you, and that is that I feel that, for too 
long, this discussion about funding and criteria and the mix of 
programs has been locked in a competition for inadequate 
funding, so people take positions that sometimes seem to be 
relatively inconsistent with the well being of the child and 
the family and their opportunities.
    The fact is that all of you have participated in crossing a 
lot of those lines and a lot of those barriers, and I think 
that is important to break down some of these old--I start with 
my first question to you, Ms. Rasmussen, on these false 
dichotomies that exist about the children.
    I think you and other states and programs have demonstrated 
that, if you really focus on what is good for the child, that 
you start to cross those lines rather rapidly. And the old 
distinctions just don't really hold up, again, under data, 
under what we have learned, the massive amount of research that 
you all cited, we have been living with now for a long time, 
but we haven't necessarily acted upon it. So you are our 
pioneers in this effort to see if we can start to reconfigure 
how we look at these programs.
    I am a little concerned that there continues to be this 
discussion that somehow, if we can just have good parents, that 
relieves us of the responsibility. I find in my own family and 
in the district I represent, a lot of times, really good 
parents are put in really bad situations because they lose a 
job, they have a long commute. A lot of things happen to 
people, or they have health problems. And right away, the 
discussion is about whether or not they can continue to keep 
their child in the care that they have selected for them. Are 
they going to have to just go to ``a babysitter?''
    These are tough questions for very good people, and so this 
discussion somehow that this is really about good and bad 
parents. I think it is really about whether or not we can help 
parents understand the importance of their involvement with 
their children on the positive side. I mean, it is just 
remarkable. We all witness it. You are all referring to your 
grandchildren, we all--with the miracles that happens here know 
they get a lot of attention and they get a lot of direction, 
and they get a lot of reinforcement.
    I had the chance to spend several hours in a Los Angeles 
airport Sunday watching parents with their children. I am sure 
they are not all bad, but they are sure as hell yelling at them 
in very harsh fashions. I suspect that stress is a greater 
indicator of what is going on with those parents and those 
children.
    So we want to--again, why we asked you to testify is that 
the American workplace has changed dramatically. Our economy 
has changed dramatically. We expect, when we emerge from this 
economic downturn, we will in fact emerge with a somewhat 
different economy than we entered it with, with people going 
through dislocations and retraining, and we see people 
returning to those to try to upgrade their skills.
    Their lives are changing dramatically. And I think this 
idea that somehow this is a separate system, and if they are 
fortunate enough to access it, rich enough to access it or 
smart enough to access it, then they might catch a break for 
their kid just has got--this has got to be part of our 
employment system. And you can't just keep shifting this off 
onto people and suggest, if the stars are all aligned, then 
they win. If they are not, then they get something in between. 
And if they have no access to that, then they lose.
    Again, this is something that families struggle with. And 
in a changing workforce, I think we have got to see that the 
system becomes simplified. It becomes flexible. It becomes 
accessible and affordable. Sounds like another conversation we 
are having around healthcare.
    Well, this is every bit as important to these kids. However 
we share the responsibility between families and programs, it 
is every bit as important to that child as the rest of the 
healthcare discussion. And I think that is what the debate 
showed.
    So thank you for being the first in this session of 
Congress. We hope that we can continue to call upon you as an 
intellectual resource as we work our way through here with Ms. 
Hirono and the other members of the committee that have 
demonstrated so much interest and work on behalf of this issue 
of early education.
    Thank you. And with that, the committee will stand 
adjourned. Thank you to all the members.
    [Questions for the record and their responses follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 26, 2009.
Ms. Harriet Meyer, President,
Ounce of Prevention Fund, West Monroe Street, Chicago, IL.
    Dear Ms. Meyer: Thank you for testifying at the March 17, 2009 
hearing of the Committee on Education and Labor on ``The Importance of 
Childhood Development.''
    Representative Lynn C. Woolsey (D-CA), member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and member 
of the Workforce Protections Subcommittee, has asked that you respond 
in writing to the following questions:
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on Tuesday, March 31, 
2009--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

           Ms. Meyer's Responses to Questions for the Record

    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?

    The cost of a high quality full-day, full-year care and education 
program serving low-income children from birth to age 5 would average 
$18,000/year per child. The cost of infant and toddler care is higher 
than that of preschool care and education, and this annual cost is an 
average of the cost of infant and toddler care and the cost of 
providing education and care for preschoolers. A funding level of 
$18,000/year per child would cover key elements for creating high 
quality child care and education, including: high teacher/student 
ratios, small group sizes, adequate compensation for qualified 
caregivers and lead teachers with BA-level degrees.
    It is important to note that the funding to support high quality 
does not have to come from a single funding source. Existing and new 
state and federal funding sources such as CCDBG, Early Head Start, Head 
Start, and state Pre-K and 03 funds can be braided together to cover 
the cost of high quality services. This will require that policies 
governing the use of these funds be aligned to facilitate and encourage 
braiding of funding streams.

    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?

    In addition to being sufficiently expanded, federal funding for 
CCDBG should be reformed to incorporate the following strategies to 
improve quality and access:\i\
---------------------------------------------------------------------------
    \i\ ``Developing America's Potential: An Agenda for Affordable, 
High-Quality Child Care'' http://www.nwlc.org/pdf/ChildCareAgenda.pdf 
Developed by: American Federation of State, County and Municipal 
Employees; Center for Law and Social Policy; The Children's Project; 
Early Care and Education Consortium; National Association for the 
Education of Young Children; National Association of Child Care 
Resource & Referral Agencies; National Association for Family Child 
Care; National Council of La Raza; National Women's Law Center; Service 
Employees International Union; and Zero to Three.
---------------------------------------------------------------------------
    <bullet> Set a one-year eligibility determination period for child 
care assistance to promote children's learning through continuity of 
care.
    <bullet> Provide grants to community-based organizations with 
expertise in serving populations with limited English proficiency to 
develop and implement effective outreach models to help eligible 
families learn about and obtain child care assistance.
    <bullet> Establish and operate a statewide Quality Rating 
Improvement System (QRIS), which would rate the quality of care offered 
by various providers. The rating system would be comprised of criteria 
appropriate for each age group, including: providing a linguistic and 
culturally appropriate early learning environment that promotes 
children's development and school readiness, appropriate staff-child 
ratios, appropriate group sizes, high standards for staff 
qualifications, education credentials and compensation, opportunities 
for parent involvement, regular program evaluation, inclusion of 
children with disabilities and other special needs and a safe physical 
environment.
    <bullet> Improve and expand Infant and Toddler Care by issuing 
grants to establish and operate neighborhood or community-based family 
and child development centers which provide high-quality, comprehensive 
child care and development services to infants and toddlers. Priority 
for grants should be given to centers in low income neighborhoods.
    <bullet> Support the creation of an adequate supply of child care 
facilities by authorizing federal funding to establish an ongoing pool 
of capital for the renovation and construction of facilities in low-
income communities, including those serving families with limited 
English proficiency.
    <bullet> Increase the supply of care for geographic or demographic 
areas where shortages are identified through developing and 
implementing strategies such as: higher payment rates and bonuses or 
direct funding (through contracting or grants) to programs which target 
those populations. Examples of these high need areas are: children in 
low-income and rural areas, care for infants and toddlers, care for 
school-age children, care for children with disabilities and other 
special needs, care for children in families with limited English 
proficiency, and care during nonstandard hours.
    <bullet> States should report annually to the Secretary of Health 
and Human Services on how these strategies are being used to expand the 
supply of high quality care and education to high need areas of the 
state and/or for particular categories of children where shortages of 
high quality programs are identified.

    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?

    States should be required to ensure that all child care meets basic 
health and safety and child development standards through:
    <bullet> Providing written health and safety standards appropriate 
to the setting of the provider and the age of the children.
    <bullet> Meeting national accreditation standards for teacher to 
child ratios and group sizes.
    <bullet> Requiring all providers to have at least 40 hours of 
appropriate and accessible health and safety and child development 
training and 24 hours annually.
    <bullet> Ensuring that all children receive a developmental 
screening and referrals for appropriate services when they enter care.
    <bullet> Inspecting and monitoring all providers at least twice a 
year to ensure compliance with these requirements.

    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?

    We suggest the development of Birth to Five Challenge Grants, which 
would set standards for high quality and encourage each state to 
develop a coordinated system across new and existing early childhood 
funding streams. Eligible programs would serve infants, toddlers and 
preschoolers who choose to apply for additional funding to invest in 
key quality components, including: professional development, 
monitoring, training and technical assistance for quality assurance; 
program evaluation and management information systems; and supports to 
promote healthy social and emotional development for all children.
    Birth to Five Challenge Grants would require a consistent set of 
program standards across settings (e.g. nonprofits, for-profits, 
schools) to ensure that all programs boost school readiness and build a 
solid foundation for later achievement. Program standards and curricula 
would be aligned with Early Learning Standards that describe the 
knowledge and skills that young children are expected to master. 
Classrooms serving 3- and 4-year-olds would be led by teachers with 
bachelor's degrees and specialized training in early childhood 
education. Center and home-based infant and toddler program staff would 
be required to have specialized training in the development of children 
from birth to age three and, over time, to obtain further credentials 
and/or degrees.
    Many states have established early childhood programs without 
supporting investments in those components needed to ensure quality, 
including professional development; monitoring, training and technical 
assistance for quality assurance; program evaluation and management 
information systems; and supports to promote healthy social and 
emotional development for all children. A Birth to Five Challenge Grant 
program also would provide funding for the quality enhancement 
components needed to build and sustain vital state early childhood 
systems.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 26, 2009.
Ms. Jessie Rasmussen, Vice President,
Buffett Early Childhood Fund, Farnam Road, Omaha, NE.
    Dear Ms. Rasmussen: Thank you for testifying at the March 17, 2009 
hearing of the Committee on Education and Labor on ``The Importance of 
Childhood Development.''
    Representative Lynn C. Woolsey (D-CA), member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and member 
of the Workforce Protections Subcommittee, has asked that you respond 
in writing to the following questions:
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on Tuesday, March 31, 
2009--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

         Ms. Rasmussen's Responses to Questions for the Record

    Thank you for the opportunity to provide additional information 
regarding early childhood education as part of the March 17th hearing 
of the Committee on Education and Labor on ``The Importance of 
Childhood Development.''
    As I indicated in my original testimony, the research is clear-
giving children at risk the opportunity to participate in 
comprehensive, high quality birth to five early childhood programs can 
change the life trajectories of these children by setting them up for 
success in school. A significant number of children from families of 
low income are in the care of others for much of the day because their 
parents are working. Therefore, the quality of child care for children 
at risk is of paramount importance as wherever children are in the 
first five years of life, they need safe, nurturing and stimulating 
environments.
    There are aspects of the Child Care and Development Block Grant 
that limit access for children at risk to highly effective early 
childhood programs. The Block Grant is not only underfunded but it is 
often implemented to purchase the least expensive care which often 
equates to the poorest level of care. I am pleased that I can share 
some ideas for improving the child care subsidy program.

    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?

    a. Infants and toddlers--$15-18,000/year: Infant-toddler care is 
more expensive because of the importance of small class sizes and low 
adult-child ratios. There is growing evidence that some of the most 
important language and social-emotional development occurs in the first 
three years of life. Therefore, it is critical that programs are 
designed to allow maximum interaction between babies and their 
caretakers.
    b. Three and four year olds: $10-12,000/year

    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?

    All of the following suggestions are predicated on increased 
federal funding to adequately cover the costs as many states are 
already investing considerably more than the required maintenance of 
effort (MOE) for the Block Grant.
    a. Establish 185% of poverty (or correlating percentage of state 
median income) as the required minimum standard of eligibility for 
receiving child care subsidies.
    b. Require state child care subsidy rates to be based on the 
quality of the program. While some states have tiered reimbursement 
rates based on the quality of programs (e.g. nationally accredited 
programs receive higher reimbursement rates), many states are unable to 
implement this strategy due to fiscal restrictions. Even with tiered 
reimbursement schedules, the subsidy rates are often based on something 
less than what it actually costs to deliver highly effective programs. 
At a minimum, rates paid to providers for children eligible for the 
subsidy should be set no lower than at the 75th percentile of the most 
recently conducted Market Rate Survey--which is conducted every other 
year.
    c. Require 12 months continuous eligibility. Many states require 
parents to re-establish their eligibility for the child care subsidy 
every month even though there has been no change in the family income. 
Implementing 12 months continuous eligibility does not mean parents 
would receive the subsidy regardless of their income; it means they 
would only have to reprocess their eligibility when their income 
changes or at 12 months.
    d. Require child care subsidy payments to be based on enrollment 
rather than attendance. Many states do not pay a provider when a child 
doesn't attend the program. While this seems to make fiscal sense, the 
fact is that the costs of running the program do not decrease when some 
of the children are not present. Paying only for attendance is a major 
disincentive to serving children dependent on the child care subsidy. 
All other families (non low income) pay for a place in a child care 
program--that fee doesn't change regardless of their child's attendance 
rate.
    e. Increase the amount of quality funds for each state to encourage 
the implementation of strategies to give children of low income access 
to high quality early care programs and to assist programs serving 
children on the subsidy in improving the effectiveness of their 
programs.
    f. Cap co-pays at no more than 10% of household income for families 
earning 185% federal poverty level or less.
    g. Cap co-pays at no more than 20% of household income for families 
earning between 185% of federal poverty level and wherever states set 
their eligibility.
    h. Reward states with no waiting lists.

    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?

    My response to this question should be further developed but given 
the time constraints for responding to these follow-up questions, I 
share the following as my initial thoughts regarding minimum 
requirements for early care and education programs.
    a. Class ratios: 3 adults per 8 infants and toddlers; 2 adults per 
17-20 preschoolers
    b. Class size: infants and toddlers: 8; preschoolers: 17-20
    c. Staff qualifications: All staff should have at least a high 
school diploma plus 15-20 hours of early childhood training. Lead 
teachers/directors should have at a minimum, training equivalent to a 
two year degree in early childhood education. The eventual goal should 
be to have lead teachers with training equivalent to a four year degree 
in early childhood. All staff should be required to meet annual 
continuous education requirements.
    d. Safe environments: Early childhood programs should be safe as 
reflected through health and safety practices along with facility 
environments plus sufficient background checks of staff.
    e. Developmentally appropriate curriculum: The activities and 
direction for children should be grounded in an understanding of what 
is developmentally appropriate across all domains of growth and 
development. Every state should be required to establish early learning 
guidelines for birth to three services.
    f. Specialized coaching and consultation: To augment minimal 
requirements, specialized coaching and consultation on childhood 
development, social/emotional development and other areas of focus need 
to be available to providers. Such coaching should assist providers in 
problem solving through reflective supervision.
    g. Connection with the public schools: It is critical to maintain 
the connection between what happens in the early years with what 
happens in the later years of formal education. Schools and early 
childhood programs need to jointly develop an understanding of how best 
to prepare children for kindergarten through developmentally 
appropriate practice and to facilitate the child's transition to 
kindergarten and parents future engagement with the public schools.

    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?

    a. Establish challenge grants to states to create comprehensive 
high quality, full day, year round birth to five services by combining 
resources across programs and funding streams. The integration of 
programs and braiding of funds should include state programs for birth 
to five services, Head Start and Early Head Start, as well as CCDBG. 
All state and federal early care and education programs must focus on 
quality early care and education of children and the needs for full-
time care for working parents.
    b. Establish quality grants to support program improvement, quality 
rating systems, central training registries, evaluation/data systems 
and specialized coaching and consultation regarding early childhood 
development, social/emotional development, and other special areas of 
focus.
    c. Establish Centers of Excellence Funds to support programs 
meeting the highest standards of quality as defined by research that 
will serve as demonstration sites of best practice and serve as a hub 
for quality enhancement of community child care programs and workforce 
development
    I hope these ideas are helpful--please don't hesitate to contact me 
for further assistance.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 26, 2009.
Mr. Jim Redmon, Executive Director,
The Kansas Children's Cabinet and Trust Fund, Landon State Office 
        Bldg., Topeka, KS.
    Dear Mr. Redmon: Thank you for testifying at the March 17, 2009 
hearing of the Committee on Education and Labor on ``The Importance of 
Childhood Development.''
    Representative Lynn C. Woolsey (D-CA), member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and member 
of the Workforce Protections Subcommittee, has asked that you respond 
in writing to the following questions:
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on Tuesday, March 31, 
2009--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

           Mr. Redmon's Responses to Questions for the Record

    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?

    Factoring in the elements needed for high quality care (i.e., BA/BS 
degreed teachers, appropriate benefit package for teachers, best 
practice staff to child ratios) we estimate the cost in Kansas would 
be:
      $12,300 for infant care
      $11,100 for toddler care
       $9,400 for three and four year olds

    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?

    To improve quality and the continuity of care for young children I 
would suggest stronger language ensuring that states utilize funding 
for enhancements in professional development for early childhood 
professionals and some form of a state quality rating system so parents 
can make more informed choices about their child's care coupled with 
strong accountability measures to ensure that outcomes are achieved and 
the funds were appropriately utilized. In addition, states should be 
strongly encouraged to enhance provider reimbursement for those who are 
serving at risk children. I would also suggest requiring a one year 
minimum certification period for child care subsidy regardless of the 
family's income changes, similar to Head Start eligibility 
determinations. This would allow families to keep children with the 
same quality provider for an extended period of time--at least a year. 
Families would be better able to plan as they would know when 
eligibility ends--rather than receiving a 10 day notice of 
discontinuance (as some states do) and having to come up with 
additional money or changing to a different--and in many cases lower 
quality--care in a very short period of time. Additionally, better 
access to care would be available if states were encouraged to 
reimburse/pay providers at least equal to most recent market rate 
survey or study provided they are using best practices in the field. 
This would open access for parents receiving child care subsidy and 
give incentives to provider higher quality care. However, in all of 
these areas in would be critical to have a lesser state match to 
encourage implementation.

    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?

    In PreK, the NIERR standards set a fair and evidence base for 
providing services. For younger children, all best practice standards 
should be met. For instance, I think that all states should mandate 
acceptable child/staff ratios for infants and toddlers (i.e., 1:3 for 
infants), require all providers who care for unrelated children to pass 
a background check, to be licensed even if they only care for one child 
(some states allow providers to care for up to 5 children before being 
licensed), to have completed at least 60 hours of child care/early 
childhood education that has a focus on quality of care, child 
development and the importance of infant-caregiver relationships before 
becoming licensed and/or caring for children, to complete a minimum of 
20 hours of education annually to continue to care for children and to 
be subject to biannual unannounced licensing visits. I also believe 
providers need to be licensed, not just registered as some are allowed 
to do as this allows a bypass of site visits.

    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?

    Incentivize enhancements to the early childhood system that we know 
will improve outcomes through a competitive process. In Kansas we 
learned that if we gave providers funding--with incentives to meet best 
practice requirements--they stepped up. In some cases we gave providers 
time to meet criteria such as educational requirements for staff, but 
overall they met higher requirements if competitive funding (such as 
our Early Childhood Block Grant and PreK Pilots) was provided.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 26, 2009.
Dr. Holly A. Robinson, Ed.D., Commissioner,
Georgia Department of Early Care and Learning, Atlanta, GA.
    Dear Dr. Robinson: Thank you for testifying at the March 17, 2009 
hearing of the Committee on Education and Labor on ``The Importance of 
Childhood Development.''
    Representative Lynn C. Woolsey (D-CA), member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and member 
of the Workforce Protections Subcommittee, has asked that you respond 
in writing to the following questions:
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on Tuesday, March 31, 
2009--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

          Dr. Robinson's Responses to Questions for the Record

    Below are the answer from Bright from the Start: Georgia Department 
of Early Care Learning.

    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?

    Please see attachment on accredited cost of child care services.

                                                 AVERAGE COST OF CARE BY AGE GROUP--ACCREDITED PROGRAMS
                                                                     [In dollars $]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                     NAEYC             NAEYC
                                                              NAA                                           NAEYC    NECPA    NAFCC    NECPA
                                         NAEYC     Annual    NAYEC    NAFCC     Annual     SOC      SOC     NECPA   NAA SOC    SOC      NAA      Annual
                                         NECPA               NECPA                         Ctrs    Homes     SOC      Ctrs    Homes    NAFCC
                                                             (SAC)                                           Ctrs    (SAC)              SOC
--------------------------------------------------------------------------------------------------------------------------------------------------------
Infant Care...........................   170.79   8,880.90   170.51   118.09   6,140.50   143.66   116.55   161.73   161.56   116.24   145.76   7,579.64
1-2 Years.............................   159.61   8,299.67   159.61   114.43   5,950.36   135.85   112.51   151.58   151.58   111.84   137.89   7,170.10
2-3 Years.............................   157.14   8,171.45   157.14   114.55   5,956.60   132.58   111.00   148.62   148.62   110.86   135.84   7,063.85
3-4 Years.............................   141.90   7,378.71   141.90   112.35   5,842.20   203.88   109.16   163.48   163.48   108.86   145.24   7,552.63
4-5 Years.............................   140.60   7,311.07   140.60   113.17   5,884.84   120.26   108.48   133.39   133.39   108.64   125.57   6,529.44
SAC...................................   127.18   6,613.44   127.17    95.64   4,973.51   110.07    93.80   121.33   121.35    93.08   113.79   5,916.95
--------------------------------------------------------------------------------------------------------------------------------------------------------

     Also this link: http://www.gsa.gov/gsa/cm--attachments/GSA--
DOCUMENT/annualprofilebklt08--R2-u-fV--0Z5RDZ-i34K-pR.pdf.

    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?

    <bullet> Quality-key is in measurement. States should be able to 
measure quality in increments, not just focusing on raising the floor 
or bringing everyone to the ceiling. Rather, states should be able to 
work with all providers to improve the existing quality and show that 
they have improved existing quality.
    <bullet> Access-from what I understand we already have flexibility 
in subsidy reimbursement rates. We would need money to monitor quality. 
I'm not saying a Quality Rating System, but to ensure access to 
quality, we have to have the resources to monitor quality.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 26, 2009.
Ms. Helene Stebbins, Project Coordinator,
National Center for Children in Poverty, S. 8th Road, Arlington, VA.
    Dear Ms. Stebbins: Thank you for testifying at the March 17, 2009 
hearing of the Committee on Education and Labor on ``The Importance of 
Childhood Development.''
    Representative Lynn C. Woolsey (D-CA), member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and member 
of the Workforce Protections Subcommittee, has asked that you respond 
in writing to the following questions:
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Please send an electronic version of your written response to the 
questions to the Committee by close of business on Tuesday, March 31, 
2009--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

          Ms. Stebbins' Responses to Questions for the Record

    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?

    High-quality child care is expensive. While the cost will vary by 
the age of the child and the area of the country, it can easily cost 
$15,000-$20,000 per child, per year. This cost includes the 
comprehensive health and parenting supports that vulnerable young 
children need, as well as the training and salaries needed to retain 
high-quality staff.
    The predominant cost drivers for the cost of care are staff 
salaries and rent/mortagage. Most child care centers do not pay the 
fair market value of the space they occupy. Most have space donated by 
churches, non-profit organizations, government, or public schools. If 
the cost of care reflected the true cost, most parents would not be 
able to afford it.
    $15,000 may seem high, but it is consistent with other quality 
programs:
    <bullet> Head Start pays, on average, $7,326 per child for a part-
day, part-year program. If you add in the 20% match required by the 
local grantees, and extend the program to be full-day, full-year, the 
cost would exceed $15,000. The cost for full-day, full-year Early Head 
Start would be even higher.
    <bullet> Educare centers, which now operate in six cities and are 
under development in eight more, cost $18,000 per child, per year (plus 
the cost of the building). This includes early care and education, as 
well as comprehensive services.
    Other comparison which do not control for quality include:
    <bullet> Per pupil spending on public K-12 education, which 
averages $11,286 according to the NEA. DC spends $17,500 per pupil, and 
New York and New Jersey spend around $15,000.
    <bullet> The National Association of Child Care Resource and 
Referral Agencies collects state data on the average annual costs of 
child care. The ranges of costs varies from $5,000 to $15,000 for 
infants, and $4,000-$12,000 for 4-year-olds.
    Other Resources:
            IWPR: ``Meaningful Investments in Pre-K: Estimating the 
                    Per-Child Costs of Quality Programs''
    The report only looks at pre-kindergarten costs. Costs for infants 
and toddlers would be higher due to smaller classes sizes and staff/
child ratios. While this report does include operating costs, it does 
not include the costs of building or renting the facilities.
    http://www.preknow.org//resource/reports/meaningfulinvestments.cfm
            The Cost, Quality, and Outcomes Study, 1995 and 1999
    This landmark study looks at direct service and operating costs in 
four states and compares costs to quality as measured by the ECERS/
ITERS test. It is an excellent source for what quality differences 
matter.

    2. In addition to increasing funding, what changes would you 
suggest to the CCDBG to improve quality and access?

    There are many ways to improve quality and access. The current 
regulations in the CCDBG already allow this. Examples already exist in 
the states.
    Access:
    <bullet> expanding eligibility when parents are looking for a job 
or attending school to obtain better jobs
    <bullet> annual re-determinations of eligibility to promote 
continuity of care
    <bullet> direct contracts with child care providers in underserved 
communities
    <bullet> single point of entry applications for income supports 
(i.e. child care subsidies, TANF, Medicaid/SCHIP, ETIC
    Quality:
    <bullet> Professional development tied to wages and retention
    <bullet> networks of specialists to support providers in areas of 
health, mental health/behavior, family supports
    Expanding access and improving quality is not a question of how to 
do it, but how to pay for it. With additional funds, the CCDBG can 
provide structured incentives (e.g. tiered reimbursement) for states 
that provide higher quality and better access.

    3. If the federal government sets a floor for minimum quality that 
states will need to meet, what should it include?

    I am not an expert in this area, but I firmly believe that 
leadership is needed at the federal level to raise the level of quality 
in child care settings. One way to do this is to define minimum quality 
standards for regulated child care.
    Examples of good quality standards include the Head Start and Early 
Head Start performance standards, and the standards articulated in 
Developing America's Potential: An Agenda for Affordable High-Quality 
Child Care, available at:
    http://www.nwlc.org/pdf/ChildCareAgenda.pdf

    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?

    First, start tracking and reporting on measures that capture access 
and quality and is comparable across states. For example:
    <bullet> State-by-state data on the percent of children eligible 
for child care subsidies who actually receive them. This includes the 
eligibility standards as defined by the states, and as a percentage of 
children at or below 85% of the state median income level (the federal 
maximum).
    <bullet> State-by-state data on the percent of children receiving 
subsidies broken down by the credentials of the lead teach in the 
classroom.
    <bullet> State-by-state data on which children are served by which 
programs, including CCDBG, Head Start, IDEA Parts C and B, and TANF.
    Second, provide financial incentives to states that increase access 
(e.g. increase the percent of eligible children served) and quality 
(e.g. increase the percent taught by credentialed teachers). Many 
states already use a tiered reimbursement system to reward child care 
providers that meet higher quality standards. With additional 
resources, the federal government could do the same.
                                 ______
                                 
    [Whereupon, at 12:14 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
